<html>
<title> - FOSTER CARE INDEPENDENT LIVING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                     FOSTER CARE INDEPENDENT LIVING

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 1999

                               __________

                             Serial 106-22

                               __________

         Printed for the use of the Committee on Ways and Means


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 61-229 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff
                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                NANCY L. JOHNSON, Connecticut, Chairman

PHILIP S. ENGLISH, Pennsylvania      BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
RON LEWIS, Kentucky                  ROBERT T. MATSUI, California
MARK FOLEY, Florida                  WILLIAM J. COYNE, Pennsylvania
SCOTT McINNIS, Colorado              WILLIAM J. JEFFERSON, Louisiana
JIM McCRERY, Louisiana
DAVE CAMP, Michigan


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of May 6, 1999, announcing the hearing..................     2

                               WITNESSES

U.S. General Accounting Office, Cynthia M. Fagnoni, Director, 
  Education, Workforce, and Income Security Issues, Health, 
  Education, and Human Services Division.........................    15

                                 ______

Casey Family Program, Ruth W. Massinga...........................     6
Courtney, Mark E., University of Wisconsin-Madison...............    23
DeLay, Hon. Tom, a Representative in Congress from the State of 
  Texas, and House Majority Whip.................................    36
Keys for Life, Sonja Matheny.....................................    50
Lighthouse Youth Services, and Child Welfare League of America, 
  Inc., Mark Kroner..............................................    11
Orphan Foundation of America, Eileen McCaffrey...................    43
Our House, Inc., Montrey Bowie...................................    52
People Places of Charlottesville, Kelli Sutton Block.............    46

                       SUBMISSIONS FOR THE RECORD

Grasso, Kathi L., Baltimore, MD, letter..........................    56
National Independent Living Association, Jacksonville, FL, 
  statement and attachment.......................................    58


                     FOSTER CARE INDEPENDENT LIVING

                              ----------                              


                         THURSDAY, MAY 13, 1999

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room B-318, Rayburn House Office Building, Hon. Nancy L. 
Johnson (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

FOR IMMEDIATE RELEASE                           CONTACT: (202) 225-1025
May 6, 1999
No. HR-6

                       Shaw Announces Hearing on
                     Foster Care Independent Living

    Congresswoman Nancy L. Johnson (R-CT), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on ways to assist States in 
strengthening and expanding programs for youth emancipating from foster 
care to help them establish independent living. The hearing will take 
place on Thursday, May 13, 1999, in room B-318 Rayburn House Office 
Building, beginning at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include scholars, program administrators, foundation 
executives, and adolescents now participating in programs designed to 
help foster children achieve independence through employment or post-
secondary education. However, any individual or organization not 
scheduled for an oral appearance may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

BACKGROUND:

      
    The Federal Government now provides States with about $70 million 
per year to conduct programs for adolescents leaving foster care that 
are designed to help them establish independent living. Research and 
numerous reports from States conducting these programs indicate that 
adolescents leaving foster care do not fare well. As compared with 
other adolescents and young adults their age, they are more likely to 
quit school, to be unemployed, to be on welfare, to have mental health 
problems, to be parents outside marriage, to be arrested, to be 
homeless, and to be the victims of violence and other crimes.
      
    After conducting hearings, talking with program administrators and 
adolescents who are in foster care and who have left foster care, and 
reviewing research and program information, the Subcommittee is 
preparing to consider reform legislation. The central feature of the 
legislation now being developed would provide States with both a new 
framework and new resources to improve and expand their programs for 
adolescents likely to stay in foster care until age 18 and for young 
adults who have left foster care and are attempting to further their 
education or to work.
      
    In announcing the hearing, Chairman Johnson stated: ``The 
legislation we are developing gives States an opportunity to revise and 
expand their programs for this group of very needy and often victimized 
adolescents. Both research and our hearings have shown that most of 
these young people have tremendous potential and inner strength. With 
timely and concrete assistance, they can establish themselves as 
successful employees, spouses, parents, and citizens. This is a job 
that we as a nation can and must do.''

FOCUS OF THE HEARING:

      
    The hearing is being conducted to stimulate public comment on the 
Independent Living legislation that Chairman Johnson and Rep. Ben 
Cardin (D-MD) are expected to introduce before the hearing. Members of 
the Subcommittee are especially interested in comments on whether 
States should be required to have programs for youths leaving foster 
care that provide services to both adolescents still in school and 
young adults who have left school up to age 21; whether the major goals 
of State programs should be to prepare adolescents for work or for 
post-secondary education or both; whether States should be required to 
help these young adults pay for health care; whether penalties should 
be imposed on States for violating Federal rules; and the types of 
program evaluation that should be used to determine the impacts of 
State programs.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Thursday, May 
27, 1999, to A.L. Singleton, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317, 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.

      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.

      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://www.house.gov/ways__means/''.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Good morning, everyone. 
Mr. Cardin and I have called this hearing to get reactions to 
the independent living bill that we introduced this morning. It 
is our intention to mark up the bill in Subcommittee next week; 
Full Committee the week after, and go to the floor early in 
June.
    The most fundamental principle in our legislation is that 
States must be responsible for designing and implementing 
activities to help young people emancipating from foster care 
to prepare for and achieve independent living. The Federal 
Government will help by establishing a general framework for 
State programs by financing the programs, by providing 
technical assistance, and by evaluating the programs, but 
States must bear primary responsibility for the structure and 
design of those programs. If welfare reform is any example, 
they are definitely up to the challenge.
    The framework established by our bill is that States must 
conduct a program with two major parts. The first part helps 
children prepare for independence while they are still living 
in foster care. The second part maintains contact with young 
people once they leave foster care and are struggling to 
establish themselves on their own. Our bill also requires 
States to prepare children to enroll in postsecondary 
education--either trade schools or college--and to move 
immediately into jobs after they leave foster care. We are 
looking for hard-nosed programs that actually get adolescents 
ready for either additional education or a real job on the very 
day they leave foster care or a combination thereof.
    Within this broad framework, States are expected to 
organize their own programs to help as many young people as 
possible and to decide how to divide their resources between 
young people still in foster care and those who have left 
foster care and are trying to achieve independent living. To 
this end, our bill doubles, from $70 million to $140 million, 
the amount of Federal money Sates receive to conduct these 
activities.
    Ben Cardin and I want to do everything possible to help 
these young people get health insurance. While they remain in 
foster care, they are automatically covered by Medicaid, but 
once they leave, they are usually on their own. In the bill we 
introduced today, States are required to provide Medicaid 
coverage to young people who have left foster care and are 
under the age of 21. However, CBO has informed us that the cost 
of this provision is $400 million over 5 years. Because we 
don't have enough money to finance the entire $400 million and 
still double the funding for the Independent Living Program, we 
will probably be forced to adjust this provision to a State 
option on Medicaid. However, even an option will result in 
around half of these children getting health coverage. Ben and 
I are going to continue to do everything we can to find the 
money to fully fund this provision, but at the very least we 
want to make them eligible for Medicaid or CHIP, Children's 
Health Insurance Program, funding.
    Finally, let me emphasize how important it is that the 
Congress consider and pass this legislation. Every year, around 
20,000 of our Nation's young people are emancipated from foster 
care. They must adapt to the demands of becoming an adult, 
which is an exceptionally difficult and perilous undertaking in 
any society at any time, but in 21st century America, with its 
emphasis on education and technology, the transition is even 
more difficult, and these young people must face these perils 
without the safety net provided by a family. Imagine that--we 
do less for children aging out of foster care--young people 
aging out of foster care than we do for welfare recipients 
moving into the work force; than we do to help disabled people 
looking for work. Look at the whole infrastructure of supported 
work--the supported work system that we have for disabled 
people, and it is simply a crime that we do so little to 
prepare and support young people who are going to become 
independent at the age of 18 with literally no backing from an 
organized adult community.
    I am filled with both admiration for how hard most of these 
young people try and shame that our society provides so little 
assistance to these richly deserving kids. Our bill by no means 
solves the problem, but it is a great step in the right 
direction and more important, still, is a signal to these young 
people that the rest of us recognize their plight, believe in 
them, and are willing to help.
    Ben.
    Mr. Cardin. Well, Madam Chair, let me first thank you and 
congratulate you for your strong leadership in this area. You 
have made foster children a major focus of this Subcommittee, 
and we are going to be able to achieve some, I think, very 
commendable results as a result of what you have been able to 
do.
    Two months ago, we held a hearing on foster children, and 
as a result of that hearing we heard firsthand the problems 
that foster children are having who age out of foster care; 
that we don't do enough as a society to deal with their needs 
for independent living. As a result of that hearing, as a 
result of your leadership today, we have a bipartisan bill that 
I have joined you in filing that provides additional assistance 
to children aging out of foster care.
    I look forward to marking up that bill shortly and being 
able to see the benefits of that legislation. As you point out, 
it doubles the amount desperately needed of Federal funds for 
the Independent Living Program; it strongly encourages the 
States to provide Medicaid coverage to all former foster 
children between the ages of 18 and 21, and it gives the States 
the flexibility to use a portion of the Independent Living 
funds to cover housing needs of children. I think each of those 
provisions is extremely important and will have major impact on 
having a more successful transition from being a foster child 
to an independent living arrangement.
    The needs have been documented; you and I have talked about 
this at great length; the people who have testified previously 
have brought out the reason why we need to move forward with 
legislation. I introduced a bill earlier. The bill that we 
introduced today doesn't cover everything that was in that 
bill, but I am very satisfied that we have reached an agreement 
that can make major progress in this area. I should also point 
out that the administration in its budget came forward with an 
initiative for foster children, and I think our action today is 
consistent with the administration.
    So, Madam Chair, I really do look forward to the witnesses 
today and moving forward on this legislation. Every year, 
20,000 children are aging out of foster care, and it is 
important that we move forward with this initiative, and I 
thank you again for holding this hearing.
    Chairman Johnson of Connecticut. Thank you, Ben, and while 
the first panel is coming forward, Ruth Massinga from the Casey 
Family Program; Mark Kroner, director of the self-sufficiency 
division of Lighthouse Youth Services; Cynthia Fagnoni, the 
Director of Income Security Issues for the GAO; Mark Courtney, 
associate professor of social work at the School of Social Work 
and Institute for Research on Poverty at the University of 
Wisconsin-Madison, and while you are getting yourselves 
assembled, let me just say that it really has been a enormous 
pleasure to work with Ben on this. You know, it is wonderful to 
have a colleague who has had a long and serious interest in 
this area, that comes to it with a lot of background and 
dedication, and his first bill was an enormous help. It is also 
a pleasure to have the administration both really seriously 
interested in dealing with a problem and a realistic partner in 
trying to shape the best bill we can within the context of our 
current circumstances, so we look forward to your testimony 
today.
    I am sorry, is it Massinga?
    Ms. Massinga. Yes.
    Chairman Johnson of Connecticut. Thank you.

 STATEMENT OF RUTH W. MASSINGA, CHIEF EXECUTIVE OFFICER, CASEY 
              FAMILY PROGRAM, SEATTLE, WASHINGTON

    Ms. Massinga. Good morning, Madam Chairman and 
Representative Cardin. I really want to thank you for the 
opportunity to testify today in support of the bill which you 
and Representative Cardin have introduced about the transitions 
of young people from foster care to adulthood. This is an issue 
that has been a longstanding concern to many in the 
organization that I serve.
    As I said, I am Ruth Massinga, and I am chief executive 
officer for the Casey Family Program, a national operating 
foundation headquartered in Seattle serving children and 
families in 14 States. Established in 1966 by Jim Casey, the 
cofounder of the United Parcel Service, and his family, this 
program has been working for more than 32 years with nearly 
3,300 individual young people who are or have been in foster 
care with the goal to help them achieve self-sufficiency and 
become productive adults.
    Your strong commitment and diligent efforts to improve the 
opportunities for success to the more than 20,000 youths who 
emancipate from the Nation's foster care system each year, are 
laudable. Too many of them leave with a resume of sustained 
child neglect and abuse, repeated losses of primary family 
member, emotional immaturity, and uneven development of basic 
skills.
    Your introduction of this bill is a clear signal that you 
are truly committed to helping young people transition out of 
foster care and succeed. As a former State secretary of human 
resources responsible for child welfare services in Maryland 
from 1983 to 1989, as well as from the vantage point of 10 
years at the Casey Family Program, I know that these young 
people can succeed and know what it takes for that to happen. 
Your bill moves us closer to accepting the challenge to match 
the complex needs of these youths with the commitment of more 
resources to create responsive, reliable support that will help 
them address the hazards facing them as they venture out into 
the world.
    What does practice wisdom and the best of the limited 
research available tell us about what works to help these young 
people find their way in the world? Of course, it begins with 
the primary care givers--the foster parents, the family 
members--knowing how and when to unlock each child's potential 
for learning and achieving just as it does for your children 
and mine. Foster parents need to know how to stimulate and 
motivate, enlisting the aid of teachers and nurturers to 
systematically determine the skills and potential assets that 
can be cultivated in each child as early as possible after they 
enter care and certainly earlier than age 16.
    Based on that systematic skill assessment, parents and 
other professionals can pursue strong educational opportunities 
and independent living skills training to meet the specific 
needs of the child or youth. Because we know that youth leaving 
foster care invariably seek support and direction from birth 
family members, there needs to be a special focus on engaging 
all of these adult players as part of the young person's 
transition. These aspects of best practice are likely to be put 
in place under the broad directions of the bill as you are 
proposing them, and I would ask that you make these as explicit 
as possible.
    There are two other areas of the bill that I urge you to 
consider strengthening: creating accountability structures 
based on child outcome or results and underscoring the need for 
promoting the need for systems integration. To know whether or 
not the bill that you are introducing is effective, we really 
must know what actually happens to these young people. 
Therefore, accountability must be based on child outcomes not 
just on the services provided.
    The child outcome identified in your bill could be 
sharpened and strengthened. In measuring the effectiveness of 
services, it is important not just to inquire about educational 
activities and the number of years in school but rather to 
determine whether the young person has graduated or earned a 
GED; to verify completion of vocational training, attainment of 
employment and at what wage level, and to inquire about stable 
housing, for how long, and whether it is subsidized or not.
    Now, I know more than most that we have not been diligent 
in this field in collecting the data necessary to measure the 
outcomes achieved by the young people served by the foster care 
system. For us at the Casey Family Program, a private 
organization with resources to focus on results, we have come 
late to the recognition that we now need outcomes stated 
preferably in comparison with cohorts of young people with 
similar circumstances. To remedy this data deficit during the 
early nineties, the program took the first longitudinal look at 
how 106 young adults from our Boise Division fared after 
leaving Casey between the years 1974 and 1992. The results 
revealed the importance of comparing youths with education and 
parenting skills. In 1998, we began to look at our alumni more 
systematically and with the collaboration of the University of 
Washington, the University of Michigan, and Harvard University, 
we started to design a comprehensive outcome study of over 700 
youths who left the Casey Program between 1988 and 1998 along 
with youths who emancipated from the public child welfare 
systems in Washington and Oregon State. We will be happy to 
share these data as they become available with the 
Subcommittee.
    So, as you double Federal outlays for independent living 
and at the same time extend the age of eligibility, I believe 
it is critical to develop fair and firm ongoing accountability 
systems capturing the results associated with the 
implementation of the bill.
    One place where I can offer you some data is in strong 
support to extend eligibility for Medicaid coverage from age 18 
to 21. In 1998, the Casey Program served approximately 250 
youths with transitional services. Eighteen of our total costs 
were spent on health care and 15 percent were spent on mental 
health services. In the same time period, we provided 
scholarship assistance to students attending 2- and 4-year, 
postsecondary education programs. Of these costs, 13 percent 
were spent on health care. Absent our support for these 
services, these young people would have gone untreated, because 
they were ineligible for other publicly funded programs. This, 
as you know, is a population at risk for chronic, expensive, 
disabling conditions if left untreated.
    In addition to tracking results, we need to understand how 
these results were achieved and to capture the key factors that 
make an appreciable difference in achieving good or bad 
outcomes. Equally important to accountability is the need to 
promoting systems integration. My bias is that these youth need 
systems that bundle services in groups or patterns that are 
easy for young people and their foster families or adult 
mentors to navigate.
    The bill, as drafted, identifies the different services and 
resources for young people but doesn't speak to the need for 
them to operate in a user-friendly way. I know that you are 
acutely aware that, for sometimes good and sometimes 
indefensible reasons, professionals from health and disciplines 
operate as if we are hermetically sealed from one another. In 
truth, to be effective, the child welfare system must talk to 
the education system or the skills assessment of the young 
adults will be less robust than needed. The job training system 
needs to work with the transportation system or young people 
can't get to the jobs for which they must be prepared. Housing 
services must connect with social services or young people may 
not sustain themselves.
    We ask that this legislation promote the integration of 
service delivery and promote ease of access for these young 
people.
    In sum, I thank your for your efforts and hope that the 
development of permanent connections among and between people 
in these systems as well as accountability for results end up 
with a better system for these young people emancipating from 
foster care of which we can all be proud. In that regard, I am 
reminded of Jay, a young person who came to us at age 14 
following years of trauma and abuse. Not long after, he became 
involved with the juvenile justice system, struggled with 
drugs, and refused all efforts of help. It would have been easy 
for people to write him off, but his foster parents and the 
staff stuck with him, and now he is a sous chef and wanting to 
give back to other young people. What you propose in this bill 
is what we want for Jay and all young people, and I thank you 
for your efforts.
    [The prepared statement follows:]

Statement of Ruth W. Massinga, Chief Executive Officer, Casey Family 
Program, Seattle, Washington

    Good morning Madam Chairwoman, Representative Cardin, and 
members of the Committee. Thank you for the opportunity to 
testify today about the transition of young people from foster 
care to adulthood, an issue that has been of long-standing 
concern to me and to the organization that I serve.
    My name is Ruth W. Massinga and I am Chief Executive 
Officer of The Casey Family Program, a national operating 
foundation headquartered in Seattle, Washington serving 
children and families in 14 states. Established in 1966 by Jim 
Casey, co-founder of United Parcel Service (UPS), and his 
family, the Program has been working for more than 32 years 
with nearly 3,300 individual young people, who are or have been 
in been foster care, with the goal of helping them develop into 
self-sufficient, productive adults.
    I want to begin by thanking Chairwoman Johnson and 
Representative Cardin for their strong commitment and diligent 
efforts to improve the opportunities for success for the more 
than 20,000 youth who emancipate from the nation's foster care 
system each year; too many of them leave care with a resume of 
sustained child neglect and abuse, repeated losses of primary 
family members, emotional immaturity and uneven development of 
basic skills.
    Your introduction of this bill is a clear signal that you 
are truly committed to helping young people transitioning out 
of foster care to succeed. As former State Secretary of Human 
Resources responsible for child welfare services in Maryland 
from 1983 to 1989, as well as from the vantage point of ten 
years at The Casey Family Program, I know that these young 
people can succeed, and know what it takes for that to happen. 
This bill moves us closer to accepting the challenge to match 
the complex needs of these youth with the commitment of more 
resources to create responsive, reliable supports that will 
help them address the hazards facing them as they venture out 
into the world.
    What does practice wisdom and the best of the limited 
research available tell us about what works to help these young 
people find their way in the world? Of course, it begins with 
primary caregivers knowing how and when to unlock each child's 
potential for learning and achieving, just as it does for your 
children and mine. Foster parents need to know how to stimulate 
and motivate, enlisting the aid of teachers and mentors, to 
systematically determine the skills and potential assets that 
can be cultivated in each child, as early as possible after 
they enter care (certainly earlier than age 16).
    Based upon that systematic skills assessment, parents and 
other professionals can pursue strong educational opportunities 
and independent living skills training to meet the specific 
needs of the child or youth. Because we know that youth leaving 
foster care invariably seek support and direction from birth 
family members and other significant community connections, 
there needs to be a special focus on engaging these players as 
part of the young persons' ``transition team.''
    These aspects of best practice are likely to be put in 
place under the broad directions of the bill as proposed, 
though I would ask this Committee to make these as explicit as 
possible. There are two specific areas of the bill that I urge 
you to consider strengthening: (1) creating accountability 
structures based on child outcomes, and (2) underscoring the 
need for promoting the need for systems integration.
    To determine the effectiveness of services and programs, we 
must know what actually happens to these young people. 
Therefore, accountability must be based on child outcomes, not 
just on services provided. The child outcomes identified in the 
bill should be sharpened and strengthened. In measuring the 
effectiveness of services it is important to not just inquire 
about educational activities and number of years of school, but 
rather to determine whether the young person has graduated or 
earned a GED; to verify completion of vocational training, 
attainment of employment and at what wage and to inquire about 
stable housing, for how long and whether it is subsidized or 
not.
    I know more than most that we have not been diligent in 
collecting data necessary to measure the outcomes achieved by 
the young people served by the foster care system. The Casey 
Family Program, a private organization with resources to focus 
on results, has come late to the realization that we need 
outcomes data, preferably in comparison with other cohorts of 
young people in similar circumstances. To remedy this data 
deficit, during the early 1990's The Casey Family Program took 
the first longitudinal look at how 106 young adults from our 
Boise Division fared after leaving Casey between 1974 and 1992. 
The results revealed the importance of preparing youth with 
educational, employment and parenting skills.
    In 1998, we began to look at our alumni more systematically 
and, with the collaboration of the University of Washington, 
University of Michigan and Harvard University, have started to 
design a comprehensive outcomes study of over 700 youth who 
left The Casey Family Program between 1988 and 1998, along with 
youth who emancipated from the public child welfare systems in 
Washington and Oregon states. We will be happy to share these 
data when they become available.
    As you double federal outlays for independent living, and 
at the same time extend the age of eligibility, I believe it is 
critical to develop fair and firm ongoing accountability 
systems capturing the results associated with implementation of 
the bill as well as the broadly defined summative evaluation of 
this total effort that is a part of the current language of the 
bill. We cannot continue to settle for the significant lack of 
data about effective uses of the federal and state funds spent 
on independent living programs to date.
    One place where I can offer you some data is in strong 
support to extend eligibility for Medicaid coverage from age 18 
to 21. In 1998, The Casey Family Program served approximately 
250 youth with transition services across this age group. 
Eighteen percent of our total costs, which were $631,900, were 
spent on healthcare and 15 percent were spent on mental health 
services. In the same time period we provided scholarship 
assistance to students attending 2- and 4-year post-secondary 
education programs at an average cost of $10,873. Of those 
costs, 13 percent were spent on healthcare. Absent Casey 
support for these services, these young people would have gone 
untreated because they were ineligible for other publicly-
funded programs. This is the population at-risk for chronic, 
expensive disabling conditions if left untreated.
    In addition to tracking results we need to understand how 
they were achieved and to capture the key factors that make an 
appreciable difference in achieving good or bad outcomes. Among 
the questions to be pursued by additional research include: 
what interventions are most effective for which children, the 
duration of their delivery and by whom (the foster parent, 
social worker, teacher, etc.), and what service configuration 
or program models are most cost-effective.
    Equally important to creating accountability structures 
based on child outcomes is the need for promoting systems 
integration. My bias is that these youth need systems that 
bundle services in routes or patterns that are easy for young 
people and their foster families or adult mentors to navigate. 
Sometimes we use professional jargon, such as systems 
integration, to describe this.
    The bill as drafted identifies the different services and 
resources for young people, but does not speak to the need for 
them to operate in a user-friendly way. I know that you are 
acutely aware that, for sometimes good and sometimes 
indefensible reasons, professionals from helping disciplines 
operate as if they are hermetically sealed one from the other. 
In truth, to be effective, the child welfare system must talk 
to the education system or the skills assessment and 
development work will be less robust than is needed. The job 
training system needs to work with the transportation system or 
young people cannot get to jobs for which they may be prepared. 
Housing services must connect with social services or the young 
people may not sustain themselves in housing or jobs, or secure 
the primary or mental health resources they need. We ask that 
this legislation promote the integration of service delivery 
and promote ease of access for these young people.
    We at Casey have come to learn that to a young person, 
permanent connections among and between people in these systems 
are the key to success. I am reminded of Jay, a young man who 
came to us at age 14, following years of trauma and abuse. Not 
long thereafter he became involved with the juvenile justice 
system, struggled with drugs, and refused all offers of help. 
It would have been easy to write Jay off. Yet his foster mother 
and his social worker stayed connected to him and were vital 
links for him to the resources in the community that finally 
enabled him to kick his habit, establish a work history and to 
stick with vocational training. He is now a chef at a highly 
respected restaurant in Seattle, married and the committed 
father of a small child, dedicated to speaking out for the 
young people that follow him in the system.
    Thank you for your hard work on behalf of Jay and the 
thousands of young people who make that transition from the 
foster care system into adulthood each year. What you propose 
in this bill is what we all want for our own children--the 
opportunities, supports and in the end connections to 
significant adults in order to become healthy, productive and 
contributing citizens in their communities. I thank you all for 
your commitment to these young people.
      

                                <F-dash>

    Chairman Johnson of Connecticut. Thank you very much.
    Dr. Kroner.

STATEMENT OF MARK KRONER, DIRECTOR, SELF-SUFFICIENCY SERVICES, 
LIGHTHOUSE YOUTH SERVICES, CINCINNATI, OHIO, AND CHILD WELFARE 
                    LEAGUE OF AMERICA, INC.

    Mr. Kroner. Madam Chair and Members of the Subcommittee, 
good morning. My name is Mark Kroner, and I am the director of 
self-sufficiency services for Lighthouse, a nonprofit 
organization based out of southern Ohio. Since 1986, I have 
been running our agency's Independent Living Program, and over 
that period of time, we have assisted between 600 and 700 young 
adults who are trying to make the difficult transition to life 
on their own after the child welfare system, and we have no 
doubt that this legislation would greatly increase the chances 
of success for these young people and also decrease the 
suffering of many youth in the country who leave the foster 
care system and can't go back home to their families.
    The youth in our program in Cincinnati have mothers who are 
mentally ill and are chemically dependent, fathers who are in 
jail or nowhere to be found, and these are kids who the local 
professional system has fully realized that they cannot go back 
to live with their families for any extended period of time. 
Many of the youth that we are working with enter the system for 
the first time at 16 or 17, and it is often a little too late 
to find an adoptive family or a foster home who is willing to 
take in an older teenage with a tattoo and an attitude.
    A lot of the teens that we work with have made it clear 
that if they were placed in a group home or any type of group 
situation or even a family foster home, that they would run 
away, because they were used to being on their own, fending for 
themselves. What they are really asking for is a place free 
from their chaotic and abusive natural family households.
    Permanency for a lot of the kids in the system I think 
means learning to live independently, and I would like to 
quickly share some of our agency's observations. We learned 
early on, back in the eighties, that if we were really going to 
prepare these kids quickly for life on their own that they 
would need to learn from the direct experience of living 
independently while still in the custody of caring adults, and, 
as Mrs. Johnson said, using the hard-nosed approach, we began 
placing kids in their own apartments as young as 16, 17, and 18 
back in the early eighties, and we immediately saw that they 
were, indeed, learning something, and they were being caringly 
coerced into taking on adult responsibilities. We have had any 
number of 16- to 17-year-olds who have done very well in this 
situation.
    The teens that have come through the program over the years 
have shown us what they need to do and learn in order to become 
more self-sufficient, and a lot of times what that means is 
putting them out on their own and allowing them to make dozens 
of crazy mistakes and foolish choices. For example, going for a 
day without food, because they spent the food allowance on a 
new CD or make-up--or coming at night and standing out in the 
snow, because they can't find out what they did with their key. 
We have kids that have gotten evicted from their apartments, 
because they couldn't control their noisy friends of family 
members, and we have had kids who have actually had their 
entire savings stolen by mothers who came to visit them who 
were addicted to crack. What I am trying to say is we want 
these kids to make these mistakes while they are still in the 
custody of an agency that can help them process what happened; 
and go over the situation.
    This bill's provision of funding for housing is exactly 
what the field of independent living needs to get to the next 
level of effectiveness. Our State has amended licensing rules 
to allow for the living arrangement options, and we have many 
landlords here willing to give our kids a chance. We also have 
a local service system that has finally gotten to the point 
where we focus more on what kids need to do and learn rather 
than on all the possible things that can go wrong.
    We have also learned that no one living arrangement works 
for all the youth that are sent to us, and over the last decade 
and a half we have developed a continuum of housing options 
that include individual scattered-site apartments, shared homes 
in which three or four youths live in a house with a live-in 
adult, host homes in which we find an adult or two that will 
allow a youth to move in with them if they have a spare room. 
We use boarding homes, all different types of roommates 
situations, and temporary shelters for youth who need to be 
removed from their apartments or any of these other places, 
sometimes on very short notice.
    Extending the period of care to 21 is also a no-brainer for 
us in Cincinnati, especially for youth with developmental 
disabilities. We are seeing probably a third of our caseload 
that had diagnosable developmental disabilities, and these kids 
are functioning at a 12- to 15-year-old level by the time they 
reach 18. They probably will not be able to graduate from high 
school until they are in their twenties or even later than 
that.
    In sum, what we are trying to do in Cincinnati is design a 
system that somewhat resembles that of a healthy family who is 
trying to help one of their own kids move out for the first 
time. I think this legislation is going to help make the system 
get more in touch with modern realities. Virtually no American 
teenagers are expected to be totally self-sufficient at 18. I 
noticed the other day that most of the college seniors that are 
doing their field placements with our agency right now still 
live at home with mom and dad.
    It is obvious to us that foster youth in our country need 
what all teens need--time to grow up, ongoing support from 
caring adults, financial support for a reasonable amount of 
time, health insurance covered by mom and dad or us until they 
can afford it, an affordable place to live when cut off from 
adult support and second chances when they fail, and I think 
that this proposed legislation wisely addresses all of these 
points.
    We can never do enough for our own kids or the kids in the 
system, but we certainly can do better than what we are doing 
now. There is no magic in this legislation or what we are doing 
in Cincinnati, just the common sense that says we cannot expect 
kids in the foster care system to do what any normal teen 
cannot do without years of financial and emotional support.
    We appreciate your efforts.
    [The prepared statement follows:]

Statement of Mark Kroner, Director, Self-Sufficiency Services, 
Lighthouse Youth Services, Cincinnati, Ohio, and Child Welfare League 
of America, Inc.

    Good morning Madam Chairwoman and Members of the 
Subcommittee. My name is Mark Kroner and I am the Director of 
Self-Sufficiency Services for Lighthouse Youth Services--a 
private nonprofit organization based in Southern Ohio since 
1969. Lighthouse Youth Services is one of over 450 member 
agencies of the Child Welfare League of America that provides 
independent living services to youths leaving foster care.
    I have been involved in training and consulting with dozens 
of organizations nationwide that are trying to develop 
independent living programs. Since 1986 I have been running our 
agency's independent living program in Cincinnati. Over that 
period of time we have assisted nearly 700 youths who are 
trying to make the difficult transition from foster care to 
living on their own.
    We are greatly encouraged by this Subcommittee's interest 
in providing supports to youths exiting foster care. The Foster 
Care Independence Act will provide much needed support and 
flexibility to the states so they can provide better services 
to kids making the transition from foster care to independence.
    Many of the youths in our program at Lighthouse have 
mothers who are mentally ill or chemically dependent, or have 
fathers who are in jail or nowhere to be found. These youth 
were abused, neglected or abandonedto the point where caring 
professionals realized that they would never be able to count 
on living with their families of origin for any extended period 
of time. We have to focus our energies on helping youth build 
workable futures for themselves.
    Many of the young people in our county entered the child 
welfare system for the first time when they were 16 or 17--
often too late to find an adoptive family or a foster home 
willing to take in an older teenager with a tattoo and an 
attitude. Many of the teens referred to us made it clear that 
they would run from a foster or group home if placed there. 
They were used to being on their own and fending for 
themselves. They just wanted a place free from the abuse and 
chaos of their natural family households.
    Up to a third of the teens we serve have a diagnosable 
developmental disability. Many of these youth are functioning 
at a 12-14 year old level at age 18. They are usually several 
years behind in school and are not ready to graduate from high 
school until they are 20 or 21. They will in no way be able to 
become totally self-sufficient at age 18.
    Permanency for many of these youths means learning to live 
independently. Even if they do spend time with family members, 
their chances for success are improved if they learn to count 
on themselves to solve their daily problemsand have the 
knowledge, experience and skills to do so.
    These foster youth receive a ``double-whammy'' when they 
reach 18. First, they learn emphatically that their families of 
origin are not going to help them. Then, they learn that the 
services and supports they had received in the child welfare 
system abruptly end.
    The Foster Care Independence Act recognizes that these 
youths need additional help. This legislation provides new and 
expanded opportunities for us to help these young people. The 
services supported by this bill would greatly increase the 
chances of success for these youths who need to venture out on 
their ownmany years ahead of their peers who often receive full 
or partial support from their families until their mid 
twenties. The services offered under the existing Title IV-E 
Independent Living program have begun to address the needs of 
youth leaving foster care, but we need to do much more.
    The Foster Care Independence Act addresses three important 
areas that will greatly increase the chances of success for 
youth aging out of foster care:
    Helping young people acquire the skills and knowledge they 
need to become self-sufficient.
    Providing health care coverage for youth up to age 21.
    Increasing housing options for youths who have left foster 
care.
    I know you have heard testimony from many others that will 
give you a clear national picture of the situation and relevant 
statistics. I would like to give you more of a perspective from 
the front line and share some of our agency's observations.
    We learned early on that the best preparation for 
independence that the youth in our program could have was the 
direct experience of living on their own while still in the 
custody of caring adults. We learned that independent living 
services without housing was like driver's training without the 
car. Life skills training without the actual experience of 
living alone and using those life skills was not enough--young 
people need real-life practice in order to really learn.
    At Lighthouse Youth Services, we started placing foster 
youth in their own apartments a number of years ago so that 
they could have the experience of learning to live on their 
own. Despite a lot of gray hairs and after-hours pages, we saw 
that these kids were indeed learning, and could be 
``constructively coerced'' into taking on adult 
responsibilities at 18 or 17. We even have had a number of 
young people live on their own and do very well at age 16.
    Using Title IV-E Independent Living funds, we began a 
countywide self-sufficiency training program for all youth in 
out-of-home care. This training has made a noticeable 
difference in the ability of youth referred to our apartment 
program to make a quick adjustment to living independently. 
Allowing youth to participate in this program beginning at age 
14, which would be made possible by the Foster Care 
Independence Act, would make our efforts even more effective.
    The teens coming through our program taught us what they 
needed to do and learn in order to become more self-sufficient. 
Sometimes it meant letting them makes dozens of crazy mistakes 
and foolish choices:
    <bullet> going to school without lunch because they spent 
their food allowance on a new nose ring.
    <bullet> getting evicted because they couldn't control 
their noisy friends.
    <bullet> losing a job after forgetting to budget for bus 
fare.
    <bullet> having their hard earned savings stolen by a 
visiting mother, addicted to crack.
    <bullet> receiving a $200 phone bill after allowing 
``friends'' free use of the apartment phone.
    <bullet> standing out in the snow at 2 a.m. wondering where 
the key went.
    But our teens made these mistakes while they were still in 
our care--and have our support in going over the events leading 
up to the mistake, the consequences, and the ``what to do next 
time'' speech.
    Over the last decade Lighthouse Youth Services has created 
a continuum of housing options that include:
    <bullet> individual scattered-site apartments;
    <bullet> small shared-homes that house 3-4 youth and a 
live-in adult;
    <bullet> host homes in which a youth shares a house with 
one or two adults;
    <bullet> access to a boarding home for females in the city 
center;
    <bullet> roommate situations; and
    <bullet> temporary shelters for youth that can't stay in 
their own apartments.
    All states need support and flexibility to establish 
similar continuums, and to extend services to youth leaving 
foster care. The Foster Care Independence Act would allow 
states to use up to 30% of Title IV-E Independent Living funds, 
which are increased in the Foster Care Independence Act, to be 
used for the room and board costs for youths ages 18-21. These 
additional funds will foster the creativity that states need to 
develop their own housing continuum and related services for 
these very vulnerable youth.
    Our state has amended licensing rules to make the less-
restrictive and semi-supervised living arrangements possible. 
We have found many landlords who are willing to give our kids a 
chance. (They tell us our kids are no worse than the general 
public.) We have a local system that focuses more on what youth 
need rather than on all of the things that could possibly go 
wrong. We expect our youth to make a lot of mistakes until they 
get it right. What they really need is help acquiring the 
skills they need to become self-sufficient.
    In short, what we are trying to do in Cincinnati is to 
create a system that somewhat resembles the caring but 
challenging atmosphere that healthy families try to create when 
helping their young adults leave home. Our model might not work 
in some of the larger cities where rents are sky high or 
apartments are scarcebut some version of it could.
    We are fortunate in Cincinnati. We have one of those rare 
situations in which the public children's service staff, 
juvenile court personnel, and private providers have reached a 
general agreement as to what services need to be provided. We 
see a lot of successes and even some miracles from time-to-
time. But we also see a larger group of youth leaving us with a 
long way to go before they are totally self-sufficient. We know 
we're not yet doing enough.
    Next month, 18 youths in our Independent Living Program 
will graduate from high school or receive their GEDs. It would 
be a real shame to hand them their diplomas and then tell them 
they are totally on their own.
    Extending services and housing assistance to youth until 21 
is a no-brainer. It is obviously what is needed to best help 
all foster youth, and especially those with developmental 
disabilities.
    In summary, it is obvious that the foster youths in our 
country need what all teens need:
    <bullet> time to grow up;
    <bullet> ongoing support from caring adults;
    <bullet> financial support for a reasonable period of time;
    <bullet> health insurance until they can afford it;
    <bullet> chances to learn from mistakes and direct 
experience;
    <bullet> an affordable place to live when cut off from 
adult support; and
    <bullet> second chances when they fail.
    The Foster Care Independence Act addresses all of these 
needs. With this legislation we have a wonderful opportunity to 
make a significant positive difference in the lives of one of 
the most vulnerable groups of people in our country. We can 
never do enough for our own kids or for the kids raised in the 
child welfare system but we can do better than what we are 
doing now. The existing Independent Living program has done a 
lot to help prepare youths leaving foster care for adulthood. 
Since that program began operating in 1987, the number of teens 
in the foster care has increased dramatically. We also now 
recognize that these youths leaving care need a broader range 
of supports and serivces than are available within existing 
programs.
    There is no magic in what we are doing in Cincinnati or in 
what this bill proposesonly the common sense that says we can't 
expect foster youth to do what any normal youth couldn't do 
without years of sustained help and financial support. Our 
foster youth need the additional supports provided by the 
Foster Care Independence Act.
      

                                <F-dash>

    Chairman Johnson of Connecticut. Thank you very much.
    Ms. Fagnoni.

     STATEMENT OF CYNTHIA M. FAGNONI, DIRECTOR, EDUCATION, 
 WORKFORCE, AND INCOME SECURITY ISSUES, HEALTH, EDUCATION, AND 
    HUMAN SERVICES DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Ms. Fagnoni. Thank you, Madam Chair and Members of the 
Subcommittee. I am pleased to be here today to discuss the 
Independent Living Program and the needs of youth leaving the 
foster care system. I would like to focus my remarks on the 
problems faced by foster care youth once they leave care; what 
is currently known about the extent of services provided by the 
ILP, and what is known about the effectiveness of the ILP. My 
testimony is based on ongoing work for the Subcommittee, 
including a visit to locations in California, Maryland, New 
York, and Texas and a preliminary review of about one-third of 
the 1998 annual ILP reports that States provide to HHS.
    Research has shown that many former foster care youth face 
difficulties in making the transition from foster care to self-
sufficiency. Many of these youths have serious educational 
deficiencies, rely on public assistance, and often find 
themselves lacking adequate housing. At the same time, research 
has also shown that addressing these deficiencies can have a 
positive effect on former foster care youth. For example, 
completing high school prior to leaving foster care was 
positively related to stable employment, not being a cost to 
the community, and overall self-sufficiency.
    To better enable youth to make the transition from foster 
care to self-sufficiency, State ILPs provide a wide array of 
services. These include helping youth complete high school or 
get a GED, prepare for postsecondary or vocational education, 
and prepare for employment. To cite just one example, youths in 
Baltimore receive employment-related training that covers 
topics, such as writing resumes, preparing for interviews, 
conflict resolution, and job retention.
    However, in some of the sites we visited, we find that the 
ILPs could not fully provide services that matched the 
employment potential of foster care youth to appropriate 
employment pathways. For example, officials in three of the 
sites we visited cited a lack of vocational opportunities that 
could be appropriate for youths.
    Many States also help youths develop daily living skills, 
such as money management, health, safety, and hygiene, self-
esteem, parenting, cooking, and problem-solving. For example, 
youths in Contra Costa County, California attend a series of 
workshops that cover money management, health and hygiene, 
parenting and sexual responsibility, and effective 
communication skills among others.
    However, we also found that important hands-on activities 
designed to provide youth with practice and daily life tests 
and experience were limited in some of the sites we visited. 
Issues such as safety regulations in group homes inhibit or 
prevent certain activities from occurring, such as practicing 
cooking.
    States also offer a variety of additional services to 
further help youth transition to living on their own. These 
include supervised practice living arrangements, such as 
transitional housing programs, and after-care services for 
youth who have just left the foster care system. In Baltimore, 
for example, the Challengers Independent Living Program 
provides youth with apartments for 18 to 24 months that are 
furnished and supervised by service providers. Program staff 
offer educational, vocational, clinical, and home life support, 
including additional independent living skills training.
    However, the transitional housing programs we visited have 
a limited number of spaces available--from 6 to 12 spaces. One 
transitional housing provider in Texas told us that while the 
program has space for 6 youths, the provider had identified an 
additional 80 to 100 youths who could benefit from this type of 
housing program. Both current and former foster care youth in 
California and Texas also told us of the need for additional 
transitional housing arrangements.
    Youth who have left the foster care system often encounter 
hardships and need aftercare services from time to time once 
they are living on their own. Although all of the sites we 
visited provide aftercare services for youth who have left the 
foster care system, officials noted that the services offered 
are not extensive. For example, Texas officials noted that 
aftercare services are only available for 6 months after the 
youth exits care.
    Given the significant challenges that foster care youth 
face in moving from foster care to adulthood, it is important 
to understand how effective ILPs are in moving these children 
and ensuring positive outcomes. However, few data are available 
to help in understanding what outcomes are achieved through 
these programs.
    We found three studies from Baltimore County, Maryland, 
Harris County (Houston, Texas), and New York City which linked 
participation in the ILP with improved education, housing, and 
other outcomes. In the Maryland study, youth who received ILP 
services were more likely to complete high school, have an 
employment history, and be employed when they left foster care. 
In Texas, graduates of the State's ILP achieved full-time 
employment earlier and were more likely to complete high school 
or a GED at a younger age than youth that did not receive 
independent living services. In New York City, studies showed 
that 75 percent of the youth in one program had completed high 
school; 72 percent had full-time employment when they left the 
care, and 65 percent had savings accounts.
    While information on program outcomes is limited, State and 
local officials we spoke with indicated that determining 
outcomes for former foster care youths is important, and two 
locations have begun to design strategies to capture this much 
needed information. Contra Costa County, for example, has 
funded a 2-year study geared toward measuring outcomes. 
Similarly, the Maryland Association of Resources for Families 
and Youth, an association of private service providers, 
recently began a project to collect key data on youth in foster 
care, upon exit from care, and at various intervals after 
leaving care. In our ongoing work, we plan to explore 
innovative practices States are using to provide services to 
foster care youth and also to examine HHS's role in developing 
and implementing performance measures.
    Madam Chair, this completes my statement. I would be happy 
to answer any questions. Thank you.
    [The prepared statement follows:]

Statement of Cynthia M. Fagnoni, Director, Education, Workforce, and 
Income Security Issues, Health, Education, and Human Services Division, 
U.S. General Accounting Office

    Madam Chair and Members of the Subcommittee:
    I am pleased to be here today to discuss the Department of 
Health and Human Services' (HHS) Independent Living Program 
(ILP) and the needs of youths leaving the foster care system. 
While some foster care youths may be adopted or reunited with 
their families, each year approximately 20,000 exit the foster 
care system with the expectation that they will be self-
sufficient. Yet many of these youths face serious problems, 
including homelessness, lack of employment stability, 
incarceration, and pregnancy at an early age. Recently, the 
Congress has raised concerns that ILP, designed to help foster 
care youths transition to living independently, does not 
provide the necessary life skills to complete basic education, 
find and maintain employment, or to otherwise live self-
sufficiently after leaving care.
    Today, I would like to focus my remarks on (1) the problems 
faced by foster care youths once they leave care, (2) what is 
currently known about the extent of services provided by ILP, 
and (3) what is known about the effectiveness of ILP. My 
testimony is based on our ongoing work for this subcommittee, 
including our visits to locations in California, Maryland, New 
York, and Texas and a preliminary review of about one-third of 
the 1997 annual ILP reports submitted by states to HHS.
    In summary, the few available studies that track youths who 
have exited foster care reveal that many have a difficult time 
making the transition to living on their own. The studies found 
that a substantial portion of these youths have not attained 
basic education goals, such as completing high school, and are 
dependent on public assistance. In addition, many experience 
periods of homelessness after leaving care and have other 
difficulties that impede their progress toward self-
sufficiency, such as being unemployed. In an effort to help 
foster care youths become self-sufficient, state ILPs offer a 
wide array of independent living services, including education 
and employment assistance; training in daily living skills, 
such as managing money, housekeeping, and personal hygiene; and 
additional transitional services, such as supervised practice 
living. However, program administrators acknowledge that 
independent living services fall short in key areas. These 
administrators report that developing appropriate employment 
opportunities for foster care youths, providing supervised 
transitional housing arrangements, and developing program 
activities that provide opportunities to practice the skills 
learned or enhance youths' self-esteem has been difficult. 
Moreover, there are few evaluations that link program 
objectives to outcomes, leaving questions concerning the 
effectiveness of the current array of independent living 
services.

                               BACKGROUND

    ILP was initially authorized by P.L. 99-272 and 
reauthorized indefinitely as part of the Omnibus Budget 
Reconciliation Act of 1993 (P.L. 103-66). The act authorized 
federal funding of $70 million per year for states to establish 
and implement services to assist youths aged 16 and over make 
the transition to independent living from foster care. Services 
are provided for a short period of time, and states have the 
flexibility to design services to meet a wide range of 
individual needs. A portion of the federal funds--$45 million--
are distributed to states as an entitlement based on each 
state's proportion of all youths receiving federal foster care 
payments in federal fiscal year 1984 across the United 
States.\1\ States are eligible to receive an additional share 
of the remaining $25 million in federal funds if they provide 
funds to match the federal dollars received. Recently, the 
Congress and the Administration proposed new initiatives 
designed to further help adolescents move from foster care to 
adulthood, including increased program funding, medical care 
coverage, and housing supports.
---------------------------------------------------------------------------
    \1\ Under title IV-E of the Social Security Act, federal matching 
funds based on the state's Medicaid matching rate are provided to 
states for foster care maintenance costs to cover a portion of the 
food, housing, and incidental expenses for foster care children from 
families eligible for benefits under the former Aid to Families With 
Dependent Children program using 1995 eligibility criteria. States 
incur all foster care costs for children not eligible for federal 
support.
---------------------------------------------------------------------------
    HHS issued instructions to states in December 1993 
outlining allowable ILP services. These services include 
education and employment assistance; instruction in daily 
living skills; and transitional support services, such as 
supervised practice living. In addition, states must provide 
youths written transitional independent living plans based on 
an assessment of their needs and may establish outreach 
programs to attract individuals eligible to participate to the 
program. Further, ILPs may include counseling and other similar 
assistance related to education and vocational training, 
preparing for a general equivalency diploma (GED) or higher 
education, and counseling and training to enhance basic living 
skills and interpersonal and social skills. Eligible 
participants for independent living services include all youths 
aged 16 and over for whom federal foster care payments are 
being made.\2\ At their option, states may also serve foster 
care youths not receiving federal assistance and former foster 
care youths who were in foster care after the age of 16. 
Likewise, states may provide services to any of these youths 
until the age of 21. Youth participation in ILP services is 
voluntary.
---------------------------------------------------------------------------
    \2\ States can receive federal foster care maintenance payments for 
eligible children while in foster care family homes, private for profit 
or nonprofit child care facilities, or public child care institutions. 
Youths become ineligible for federal foster care maintenance payments 
at age 18.
---------------------------------------------------------------------------

   RESEARCH SUGGESTS THAT FOSTER CARE YOUTHS STRUGGLE TO REACH SELF-
                              SUFFICIENCY

    Many foster youths have a difficult time making the 
transition from the foster care system to self-sufficiency. 
While there are few available studies tracking youths who have 
exited foster care, our review of these studies reveals some 
consistent findings. Research has shown that many former foster 
care youths have serious education deficiencies and rely on 
public assistance. For example, a 1991 Westat study of foster 
care youths interviewed 2.5 to 4 years after they left care 
found that 46 percent of these youths had not finished high 
school.\3\ Additionally, almost 40 percent were determined to 
be a cost to the community, such as being dependent on some 
form of public assistance or Medicaid. Other research shows 
similar results. A 1990 study of former foster care youths in 
the San Francisco Bay Area who had been out of care at least 1 
year but no more than 10, showed that 55 percent left foster 
care without graduating from high school and that 38 percent 
still had not graduated at the time of the study.\4\ Similarly, 
the University of Wisconsin recently studied youths who had 
been out of care between 12 and 18 months and found that 37 
percent had not finished high school and 32 percent were 
receiving public assistance.\5\
---------------------------------------------------------------------------
    \3\ Westat, Inc., A National Evaluation of Title IV-E Foster Care 
Independent Living Programs for Youth (Washington, D.C.: HHS, 1991).
    \4\ Richard P. Barth, ``On Their Own: The Experiences of Youth 
After Foster Care,'' Child and Adolescent Social Work, Vol. 7, No. 5 
(Oct. 1990).
    \5\ Mark E. Courtney and Irving Piliavin, Foster Youth Transitions 
to Adulthood: Outcomes 12 to 18 Months After Leaving Out-of-Home Care 
(Madison, Wisc.: University of Wisconsin, 1998).
---------------------------------------------------------------------------
    In addition, former foster care youths often find 
themselves lacking adequate housing. The Westat study reported 
that 25 percent of the youths were homeless at least 1 night. 
Likewise, the University of Wisconsin study found that, since 
leaving care, 14 percent of the males and 10 percent of the 
females had been homeless at least once and 22 percent had 
lived in four or more places in the previous 12 to 18 months. 
The connection between homelessness and prior episodes of 
foster care can also be seen in a 1997 study of 400 homeless 
individuals.\6\ This study found that 20 percent had lived in 
foster care as children and 20 percent had one or more children 
currently in foster care.
---------------------------------------------------------------------------
    \6\ Homes for the Homeless, Homelessness: The Foster Care 
Connection (updated Apr. 1997), http://www.opendoor.com/hfh/
fostercare.html (cited Dec. 9, 1998).
---------------------------------------------------------------------------
    Additional difficulties may further impede former foster 
care youths' ability to become self-sufficient. For example, 
the Westat study found that 51 percent of the youths were 
unemployed and 42 percent had given birth or fathered a child. 
Similarly, the University of Wisconsin found that 39 percent of 
the youths were unemployed and that 27 percent of the males and 
10 percent of the females were incarcerated at least once.
    At the same time, research has shown that addressing these 
deficiencies can have a positive effect on former foster care 
youth. The Westat study found a connection between certain 
variables and the youths' ability to live independently. For 
example, the study showed that completing high school prior to 
leaving foster care was related to stable employment, not being 
a cost to the community, and overall self-sufficiency. Further, 
youths who held at least one job during their stay in foster 
care were more likely to maintain a job after care.
    Findings from the three studies we reviewed are summarized 
in table 1.

  Table 1: Outcome Information on Former Foster Care Youths Reported in
                          Three Recent Studies
------------------------------------------------------------------------
Study and samples on which percentages are     Outcome information on
                   based                      former foster care youth
------------------------------------------------------------------------
Westat (1991) study of 810 former foster    Education:
 care youths in eight states at 2.5 to 4    --46 percent had not
 years after leaving care.                   completed high school.
                                             Employment:--51 percent
                                             were unemployed.
                                            --62 percent had not
                                             maintained a job for at
                                             least 1 year. Other:--40
                                             percent were a cost to the
                                             community.
                                            --25 percent were homeless
                                             at least 1 night.
                                            --42 percent had birthed or
                                             fathered a child.
Courtney and Piliavin (1998) study of 113   Education:
 former foster care youths in Wisconsin at  --37 percent had not
 12 to 18 months after leaving care.         completed high school.
                                            Employment:
                                            --39 percent were
                                             unemployed.
                                            --19 percent had not held a
                                             job since leaving care.
                                            Other:--32 percent received
                                             some kind of public
                                             assistance.
                                            --12 percent were homeless
                                             at least once (14 percent
                                             males and 10 percent
                                             females).
                                            --22 percent had lived in
                                             four or more places.
                                            --44 percent reported
                                             problems with acquiring
                                             needed medical care.
                                            --27 percent of males and 10
                                             percent of females were
                                             incarcerated at least once.
Barth (1990) study of 55 former foster      Education:
 care youths in the San Francisco Bay Area  --38 percent had not
 at least 1 year and no more than 10 years   completed high school.
 after leaving care.                        Employment:
                                            --25 percent were
                                             unemployed.
                                            Other:
                                            --53 percent reported
                                             serious financial
                                             hardships.
                                            --47 percent received some
                                             form of public assistance
                                             or had problems paying for
                                             food or housing.
                                            --35 percent were homeless
                                             or moved frequently.
                                            --38 percent did not have
                                             health or medical
                                             coverage.--13 percent
                                             reported hospitalization
                                             for an emotional problem.
                                            --40 percent of females
                                             reported a pregnancy.
                                            --35 percent had been
                                             arrested or spent time in
                                             jail or prison.
------------------------------------------------------------------------

  MULTIPLE SERVICES ASSIST YOUTHS IN ACHIEVING INDEPENDENCE BUT FALL 
                           SHORT IN KEY AREAS

    To better ensure foster care youths are prepared to live as 
self-sufficient adults, state ILPs provide an array of 
services, including assistance with completing education and 
finding employment; developing the basic skills needed to live 
independently, such as money management, hygiene, housekeeping, 
and nutrition; and transitional services, such as supervised 
practice living arrangements. However, state and local 
administrators acknowledge that their current ILPs fall short 
in key areas. For example, some programs do not sufficiently 
seek out employment opportunities in the community and offer 
few opportunities for youths to participate in real-life 
practice opportunities or esteem-building experiences. 
Moreover, some programs could not provide adequate housing or 
other transitional assistance for youths still in care and 
those who have left care.

Education and Employment Assistance

    Our review of annual state reports and our visits to four 
locations show that states provide services to help youths (1) 
complete high school or a GED, (2) prepare for post-secondary 
or vocational education, and (3) prepare for employment. For 
example, in Contra Costa County, California, an education 
specialist meets with youths to discuss education goals, review 
grades, and assess education needs. If a youth is behind 
academically, tutoring services are provided. The specialist 
also sets up tours at local colleges and vocational programs 
and assists youths in completing financial aid applications. A 
job development specialist assists difficult to employ youths 
find self-supporting employment through such means as coaching, 
counseling, and on-site job development training. The 
specialist also coordinates career fairs. Youths in Baltimore 
receive employment-related training that covers topics such as 
writing resumes, preparing for interviews, conflict resolution, 
and job retention.
    However, in the locations we visited, we found that the 
ILPs could not fully provide services that matched the 
employment potential of foster care youths to appropriate 
employment pathways. For example, officials in three of the 
locations we visited cited a lack of vocational opportunities 
appropriate for youths. State and local coordinators in Texas 
indicated that few apprenticeship positions are available, 
while officials in Baltimore and New York City reported a lack 
of affordable vocational programs or funds to pay for such 
programs. Baltimore officials also reported that culinary arts 
and technology-related programs--two programs popular with 
foster youths--are very expensive. Of the four locations we 
visited, only Texas offers statewide tuition waivers for all 
state-supported vocational, technical, and post-secondary 
schools.
    We also found that connections between ILP and potential 
employers are not thoroughly developed. For example, ILP 
coordinators in one location said they did not have time to 
establish relationships with many employers and that employment 
development efforts in their location were informal. State 
officials in California and Maryland indicated that they 
recognize more public-private partnerships to provide youths 
with employment opportunities are needed. In addition, New York 
City officials reported that they are just beginning to devise 
ways to link with employers to enhance youth job prospects, 
such as developing internship opportunities. Several officials 
also pointed out that more staff need to be assigned to 
accomplishing this task.

Assistance in Learning Daily Living Skills

    Our review of annual state reports shows that many states 
help youths develop daily living skills. Each location we 
visited conducts independent-living skills classes to teach 
youths tasks that are necessary to live self-sufficiently. For 
example, youths in Contra Costa County, California, attend a 
series of workshops that cover life skills such as money 
management, health and hygiene, parenting and sexual 
responsibility, and effective communication skills. Money 
management covers topics such as how to prepare a budget and 
how to open and use a checking account. In the San Antonio, 
Texas, area, life-skills classes meet for 8 weeks and cover 
core areas, including personal and interpersonal skills, health 
and safety, money management, and planning for the future. In 
New York City, life-skills classes provide similar instruction 
as well as instruction on housekeeping, health care, 
interpersonal skills, food management, transportation, and 
family planning.
    However, important hands-on activities to practice daily 
life tasks and experiences to develop self-esteem were limited 
in some of the locations we visited. Some state and local 
program officials acknowledged the importance of allowing 
youths to attempt (and perhaps initially fail) daily tasks--
including cooking, cleaning, doing laundry, and comparison 
shopping--until they become proficient at these tasks. Program 
officials in two locations and foster care youths in three 
locations reported that issues, such as safety regulations for 
group homes, inhibit or prevent certain activities, such as 
practicing cooking. In some group homes, laundry products and 
cooking utensils may be locked away from youths. In addition, 
esteem-building experiences are often limited to a small number 
of youths. For example, local officials in Texas reported that 
opportunities for foster care youths to participate in post-
secondary school conferences or extended outdoor activities 
were limited. In addition, programs offering adult mentors--in 
an attempt to build positive and lasting relationships--serve a 
small number of youths. For example, a foster care service 
provider in Texas--contracted by the state specifically to 
develop mentor programs--reported difficulties finding mentors. 
However, officials in all locations saw some type of mentor 
program as one method to provide youths with a vocational role 
model and opportunities to practice other independent living 
skills they have learned.

Housing and Other Transitional Support Services

    Based on our review of annual state reports and site 
visits, states offer a variety of additional services to 
further help youths transition to living on their own. These 
include supervised practice living arrangements--such as 
transitional housing programs--and aftercare services for 
youths who have left the foster care system. Transitional 
housing programs--while designed slightly differently in each 
location--provide an opportunity for youths to experience 
living independently while still receiving supervision and 
financial support. In Baltimore County, Maryland, for example, 
the Challengers Independent Living program seeks to provide 
youths who have previously lived a dependent lifestyle with 
different or improved means to cope with present and 
forthcoming independence once they leave foster care. Foster 
care youths can reside for 18 to 24 months in apartments 
furnished and supervised by the service provider and receive a 
weekly stipend to purchase clothing, food, and household 
supplies. They also are responsible for cleaning their 
apartments and doing their laundry. Each youth's foster care 
payment covers the cost of rent, utilities, and administration 
of the program. Program staff also offer educational, 
vocational, clinical, and home-life support, including 
additional independent-living skills training.
    Officials in the four locations we visited reported that 
the number of supervised transitional housing sites is very 
limited and that they could not provide adequate housing 
assistance for both youths in care and those who have left the 
system. The programs we visited have a restricted number of 
spaces available--from 6 to 12 spaces. One transitional housing 
provider in Texas indicated that while the program has spaces 
for 6 youth, an additional 80 to 100 youths with no housing 
upon exiting foster care could benefit from this type of 
housing program. A transitional housing provider in a second 
location explained that program staff carefully screen youths 
for readiness and accept only the most promising teens into the 
program. Current foster care youths in Texas and former foster 
care youths in California also emphasized the need for 
additional transitional housing arrangements.
    Youths who have exited foster care face a number of 
obstacles in finding housing, according to officials in the 
locations we visited. For example, many landlords are reluctant 
to rent apartments to a youth without work experience or credit 
history. In addition, foster care youths who live in urban 
areas often do not earn a sufficient income to pay the rents 
found in large cities and may find it difficult to save enough 
money to pay for a security deposit. Officials in Baltimore 
reported that the local social services department often writes 
a letter to the landlord on behalf of youths to help them 
obtain housing.
    Finally, officials at the locations agree that youths who 
have left the system often encounter hardships and need 
aftercare services from time to time. Although all of the 
locations we visited provide such services, some officials 
noted that their aftercare services are not extensive. For 
example, in Texas, aftercare services are only available for 6 
months after the youth exits care. The services consist mainly 
of referrals to other service agencies, visits to colleges, and 
a small stipend for 4 months. Aftercare services in Baltimore 
County and New York City are limited to referring the youths to 
other agencies who can assist them. However, at both of these 
locations, youths have the opportunity to remain in foster care 
until age 21 under certain circumstances. Contra Costa County, 
California, previously offered aftercare to youths up to age 19 
on a case-by-case basis; new state legislation mandates that 
ILP now serve youths to age 21.

            INFORMATION ON PROGRAM EFFECTIVENESS IS LIMITED

    Given the significant challenges that foster care youths 
face in moving from foster care to adulthood, it is important 
to understand how effective ILPs are in better ensuring 
positive outcomes. However, few data are available to help in 
understanding what outcomes are achieved through these 
programs. States are required to report to HHS participant 
achievement 90 days after program completion, such as the 
number of youths who are employed, have completed high school 
or a GED, are attending college, and are living independent of 
public assistance. However, state and local officials reported 
much difficulty in finding youths to determine their living 
status once they leave care. These officials indicated they 
either do not follow up with youths after leaving foster care 
or have little success finding youths. For example, a Maryland 
official stated that response to follow-up contact in the past 
was very limited and that only 15 percent of youths returned 
follow-up letters. Local officials in Texas estimated that 
about 30 to 35 percent of youths disappear during the initial 
90-day period and that some can only be located through word-
of-mouth or sibling contacts. They noted that following up with 
youths who received a stipend as part of aftercare is less 
difficult.
    In addition, few formal studies have been conducted that 
measure ILP effectiveness. We found three studies--from 
Baltimore County, Harris County (Houston, Texas), and New York 
City--that linked participation in ILP with improved education, 
housing, and other outcomes. In the Baltimore County study, 
youths who received ILP services were more likely to complete 
high school, have an employment history, and be employed when 
they left foster care.\7\ In the Harris County study, the 
authors found that graduates of the Texas ILP achieved full-
time employment earlier and were more likely to complete high 
school or a GED at a younger age than youths who did not 
receive independent living services.\8\ The New York City study 
of independent living services provided by Green Chimneys 
Children's Services showed 75 percent of the youths had 
completed high school or a GED, 72 percent had full-time 
employment when they left care, and 65 percent had savings 
accounts.\9\ Another study linked certain foster care 
placements with greater attainment of practical living 
skills.\10\ This study found that foster care youths placed in 
apartment-type transitional housing scored higher on life-
skills knowledge assessment. Finally, the Westat study found 
that youths who received training in money management, 
obtaining a credit card, and buying a car, as well as help in 
how to find a job and appropriate education opportunities were 
more likely to maintain a job for at least a year. However, in 
some instances, ILP did not have the desired effects. For 
example, in the Westat study, researchers found that receiving 
independent living services did not significantly reduce the 
probability of early parenthood. In addition, the Harris County 
study found that program participants younger than 21 were more 
likely to be dependent on different forms of public 
assistance--specifically subsidized housing and food stamps--
than the group of nonprogram participants under age 21.
---------------------------------------------------------------------------
    \7\ Maria Scannapieco and others, ``Independent Living Programs: Do 
They Make A Difference?'' Child and Adolescent Social Work Journal, 
Vol. 12, No. 5 (Oct. 1995).
    \8\ Jane T. Simmons, ``PAL Evaluation Final Report,'' unpublished 
report submitted to Harris County (Texas) Children's Protective 
Services (Mar. 6, 1990).
    \9\ Gerald P. Mallon, ``After Care, Then Where? Outcomes of an 
Independent Living Program,'' Child Welfare, Vol. 77 (Jan./Feb. 1998).
    \10\ Edmund V. Mech and others, ``Life-Skills Knowledge: A Survey 
of Foster Adolescents in Three Placement Settings,'' Children and Youth 
Services Review, Vol. 16, Nos. 3/4 (1994), pp. 181-200.
---------------------------------------------------------------------------
    State and local officials indicate, however, that 
determining outcomes for former foster care youths is 
important, and two locations have begun to design strategies to 
capture this much needed information. Contra Costa County, 
California, for example, has funded a 2-year study geared 
toward measuring outcomes. The study will determine the status 
of youths at the time they enter ILP--such as foster care 
placement stability, academic performance, and living-skills 
assessment--and measure youth outcomes after ILP services are 
given. One goal is to use the information to develop better 
aftercare programs. Similarly, the Maryland Association of 
Resources for Families and Youth--an association of private 
service providers--recently began a project to provide the 
answers to three questions: Whom do we serve? What services do 
we provide them? and What are the outcomes of those services? 
The project requires data collection while the youths are still 
in care; upon exit from care; and at 6-, 12-, and 18-month 
intervals after leaving care.
    In our continuing analysis of ILPs, we plan to explore in 
greater detail many of these issues, including any innovative 
strategies being implemented in the states. We also plan to 
look at HHS' role in ensuring that performance measures are 
identified and implemented. This information will be presented 
in our final report to the Subcommittee.
    Madam Chair, this concludes my prepared statement. At this 
time, I will be happy to answer any questions you or the other 
Members of the Subcommittee may have.
      

                                <F-dash>

    Chairman Johnson of Connecticut. Thank you very much.
    It is a pleasure to welcome Mark Courtney from Wisconsin. 
We are glad your plane got you here in time, and we are looking 
forward to hearing what you have to say.

 STATEMENT OF MARK E. COURTNEY, ASSISTANT PROFESSOR, SCHOOL OF 
 SOCIAL WORK AND INSTITUTE FOR RESEARCH ON POVERTY, UNIVERSITY 
                      OF WISCONSIN-MADISON

    Mr. Courtney. It is a pleasure to be here; thanks for 
inviting me. Today, I am going to share with you the results of 
a study that I have been conducting with Irving Piliavin and 
Andrew Grogan-Kaylor in Wisconsin of youth that have aged out 
of the foster care system in Wisconsin during 1995 and 1996. I 
am also going to share with you my observations regarding the 
Foster Care Independence Act of 1999.
    Our study is following foster youth from before they left 
the system until 3 years after they exited. Thus far, we have 
interviewed 141 youths while they were in care, and we have 
been able to follow about 80 percent of them, or 113, for about 
12 to 18 months after they have left the system. All of them 
have been in care at least 18 months and on an average over 5 
years. So, from our perspective, we believe the system had a 
clear responsibility to prepare them for independence.
    We asked a number of questions about whether they had been 
trained in areas specified in law and regulations, and we found 
that on average about three-quarters of them claimed that they 
had been trained in any given area. However, far fewer had 
actually been provided concrete assistance in carrying out 
essential tasks associated with independent living. For 
example, fewer than one-fifth have received any job training; 
participated in a mock job interview; been told how to apply 
for public assistance; received help finding a job or help 
obtaining housing, personal health records or health insurance. 
Not surprisingly, then, over one-quarter of the foster youth 
felt either not at all or not very well prepared in a number of 
important areas, including getting a job, managing money, 
obtaining housing, knowledge of community resources, parenting, 
and living on one's own.
    Almost a third of the youths were at or below an eighth-
grade reading level when we first contacted them near the time 
when they should have been graduating from high school. Not 
surprisingly, given their educational deficits, by 12 to 18 
months past discharge, 37 percent of the young adults had not 
completed high school; 55 percent had completed high school or 
an equivalent, and only 9 percent had entered college.
    The former foster youths had significant unmet health and 
mental health needs. Forty-four percent of them reported having 
trouble obtaining medical care most or all of the time since 
leaving the system. Of these, 90 percent reported that this was 
due to a lack of health insurance coverage or care simply 
costing too much. Nearly half of our respondents had received 
mental health services in the year prior to our interview with 
them while they were in the system, yet only one-fifth had 
received any mental health services since leaving the system in 
spite of no change in their overall, relatively poor mental 
health.
    The bottom line is that achieving self-sufficiency is 
difficult, to put it mildly, for a large percentage of the 
former foster youth. Fewer than half had at least $250 when 
they left the system. Only three-fifths were working when we 
interviewed them postdischarge, and even those employed, on 
average, earn less than someone working full-time in a minimum 
wage job. All told, 44 percent of the group had either been 
homeless, incarcerated, or received public assistance since 
leaving the care of the State.
    These findings give pause. At the same time, they provide 
support for the provisions of the Foster Care Independence Act 
of 1999. The proposed legislation recognizes the considerable 
unmet health and mental health needs of youth aging out of 
foster care. From our perspective, common sense calls for 
extension of Medicaid eligibility for this population through 
the age of 21. The act would also make available substantial, 
additional funding for support for youth making the transition 
to independence both before and after they leave the protection 
of the formal foster care system.
    Currently, most services focus on educating foster youth 
about independent living skills through training programs prior 
to their discharge from the system, while providing limited, if 
any, hands-on experience for youth. What is most sorely lacking 
are adequate opportunities for former foster youth to return to 
the system for help when that help is most needed and 
appreciated after they are on their own. As an aside, we found 
that three-quarters to four-fifths of them expected that they 
would be able to do that, and that was one of the most 
troubling findings, that they actually believed they could go 
back to the system and get help.
    In addition to providing a much needed increase in basic 
funding for independent living programs, the Foster Care 
Independence Act would allow States the flexibility to use 
Federal funds for much needed concrete assistance in dealing 
with obstacles to self-sufficiency, particularly noteworthy, 
given the level of homelessness and housing instability of this 
population, both in our study and others, the provision of 
allowing a portion of the funds to be used for housing 
assistance for former foster youth under the age of 21.
    Last, the legislation would ensure that independent living 
programs would be subjected to much more thorough outcome 
evaluation than in the past. our Nation has spent over $1 
billion on these programs in the past decade while learning 
almost nothing about what works for whom.
    In summary, available evidence suggests that many if not 
most foster youth who age out of foster care, our children, 
have a very difficult time landing on their feet when they are 
pushed out of the door of this system. The Foster Care 
Independence Act would give States the funds and flexibility to 
better support these youth in achieving self-sufficiency as 
well as hold States accountable for demonstrating the 
effectiveness of their efforts. That completes my remarks.
    [The prepared statement follows:]

Statement of Mark E. Courtney, Assistant Professor, School of Social 
Work and Institute for Research on Poverty, University of Wisconsin-
Madison

    Today I am going to share with you some results from a 
study conducted by myself, Irving Piliavin, and Andrew Grogan-
Kaylor at the University of Wisconsin-Madison of the 
experiences of foster youths who aged out of the Wisconsin 
foster care system in 1995 and 1996. I will also share with you 
my observations regarding the Foster Care Independence Act of 
1999.
    Our study is following foster youth from before they left 
the system until three years after they exited. Thus far we 
have interviewed 141 of them while they were in care and 113 of 
those, or about 80 percent, 12 to 18 months after they were 
discharged from the system. The youths had been in care at 
least 18 months, an average of over five years, and therefore 
we believe that the system had a clear responsibility to 
prepare them for independence.
    We asked whether they had been ``trained'' in a number of 
areas specified in law and regulations. The average percentage 
of sample members reporting that they had been trained in a 
given area was 76 percent. However, far fewer had actually been 
provided concrete assistance in carrying out essential tasks 
associated with independent living. For example, fewer than one 
fifth had received any job training, participated in a mock job 
interview, been told how to apply for public assistance, 
received help finding a job, or help obtaining housing, 
personal health records, or health insurance. Not surprisingly, 
over one-quarter of the former foster youth felt either not at 
all, or not very well prepared in a number of important areas 
including getting a job, managing money, obtaining housing, 
knowledge of community resources, parenting, and living on 
one's own.
    Almost a third of the youths were at or below an eighth 
grade reading level when we first contacted them. Not 
surprisingly, given their educational deficits, by 12 to 18 
months past discharge 37 percent of the young adults had not 
yet completed high school, 55 percent had completed high school 
or an equivalent, and only 9 percent had entered college.
    The former foster youths had significant unmet health and 
mental health needs. Forty-four percent of them reported having 
trouble obtaining medical care most or all of the time. Of 
these, 90 percent reported that this was due to a lack of 
health insurance coverage or care costing too much. Nearly half 
of our respondents had received mental health services in the 
year prior to our interview with them while they were in out-
of-home care. Yet, only about one-fifth had received any mental 
health services since leaving care in spite of no change in 
their overall relatively poor mental health status.
    The bottom line is that achieving self sufficiency was 
difficult for a large percentage of the former foster youth. 
Fewer than half had at least $250 when they were discharged 
from the system. Only three-fifths were working when we 
interviewed them 12 to 18 months after discharge. Even those 
employed earned on average slightly less than a full-time 
minimum wage worker. All told, 44 percent of the group had 
either been homeless, incarcerated, or received public 
assistance since leaving the care of the state.
    These findings give pause, but at the same time they 
provide support for the provisions of the Foster Care 
Independence Act of 1999. The proposed legislation recognizes 
the considerable unmet health and mental health needs of youth 
aging out of foster care. Common sense calls for extension of 
Medicaid eligibility to these youth through the age of twenty-
one. The Act would also make available substantial additional 
funding for support to youth making the transition to 
independence both before and after they leave the protection of 
the formal foster care system. Currently, most services focus 
on educating foster youth about independent living skills prior 
to their discharge from the system, while providing limited if 
any ``hands-on'' experiences for youth. What is most sorely 
lacking are adequate opportunities for former foster youth to 
return to the system for help when that help is most needed and 
appreciated, after they are on their own. In addition to 
providing a much needed increase in basic funding for 
independent living programs, The Foster Care Independence Act 
would allow states the flexibility to use federal funds for 
much-needed concrete assistance in dealing with obstacles to 
self sufficiency. Particularly noteworthy, given the level of 
homelessness and housing instability of this population, is the 
provision allowing up to 30% of funds to be used for housing 
assistance to former foster youth under the age of 21. Lastly, 
the legislation would ensure that current and future 
independent living programs would be subjected to much more 
thorough outcome evaluation than in the past. Our nation has 
spent over one billion dollars on these programs over the past 
decade while learning almost nothing about what works for whom. 
In summary, available evidence suggests that many if not most 
youth who age out of foster care, our children, have a very 
difficult time landing on their feet when they are pushed out 
the door of the system. The Foster Care Independence Act of 
1999 would give states the funds and flexibility to better 
support these youth in achieving self sufficiency as well as 
hold states accountable for demonstrating the effectiveness of 
their efforts.
      

                                <F-dash>

    Chairman Johnson of Connecticut. All right. I thank the 
panel for their testimony, and I thank you, Mark, for this 
report on some concrete research. Unfortunately, we haven't 
been doing this kind of research very long and don't know a lot 
more about what we are doing. So, we do appreciate your 
research and look forward to actual follow up on children, of 
young people.
    I want to ask you--you have all commented on the lack of 
data and the need to really look at outcomes and what that 
tells us. I assume most of you are familiar with the AFCARS, 
Adoption and Foster Care Analysis and Reporting System, which 
we put a lot of money into, a lot of time, and a lot of years 
to establish. There is resistance, naturally, to altering the 
AFCARS system, and there is some concern about how much we can 
alter it and not cause some really big problems. So, I am not 
intimately acquainted with the AFCARS system; I am merely 
spouting this information. I theoretically know it, but I don't 
practically. For those of you who have a lot more practical 
understanding of the system than I do, do you think we--are 
there specific modest changes that we could make that you think 
wouldn't be too difficult for the system to absorb but would 
give us better information?
    Ms. Massinga.
    Ms. Massinga. Thank you. I suggested some measures like 
knowing whether or not kids have graduated from high school; 
like knowing whether or not kids drop-out and how long they 
have been a drop-out. I appreciate the difficulty for States to 
make adjustments, because as you say we are just raising the 
level of data gathering, and I know that those are difficult 
decisions, but it seems if we really pressed for results-
oriented data as well as information on how kids progress; 
results that are key--like ``Are kids well? Are they receiving 
health services?''--and so forth. I think it might be very 
useful.
    Mr. Kroner. I think that one of the hardest things to do in 
the field of independent living is to keep track of kids once 
they leave the system. One study we were involved with actually 
hired a team of researchers to call kids every 3 months to make 
sure they knew where they lived and saw how they did, and it 
showed a lot of positive success for independent living 
programs, but if you don't have a group of people assigned to 
do that, these teens are like every other teen in America--they 
tend to move around a lot. One move and they are out of your 
research pool. So, we have to find some way to keep track of 
these kids; give them some kind of card that they can call in 
every now and again to report on what they are doing and give 
them some type of financial incentive for calling back in. But, 
other than that, it is really tough to keep track of them.
    Ms. Fagnoni. I should point out, as we note in our 
testimony, HHS does require States to provide annual reports on 
the independent living programs, but the one measure that tries 
to track to what happens to youth after they leave the foster 
care system asks for information on what has happened to them 
90 days after they leave the system. And there are two issues 
with that. One is, even with the 90 days, which is a fairly 
short period of time, we were told by officials that they had 
difficulty locating the youth even within that short period of 
time, but the issue is they will also note that 3 months is not 
a long enough period of time to really know youth are faring 
once they leave the system.
    Mr. Courtney. I think if the primary concern--and I believe 
the primary concern should be what is happening after they have 
left the system--that AFCARS isn't really the best mechanism 
for doing that for a number of reasons. I believe that the 
Federal Government should, through the States, periodically do 
the kind of assessment that we are doing on a sample of 
children who are leaving the system, so we periodically have a 
sense, generally, how these folks are doing after they leave 
the system. And combine that with some systematic assessments 
of different approaches to doing independent living services, 
because there are myriad approaches to try and prepare people 
and then support them after they are on their own, and we 
haven't done rigorous evaluation really of any of those. I 
think doing both of those things would, one, give us the sense 
of generally how folks are doing, and then, two, give us a 
sense of what works for whom.
    It is very difficult to follow them. We think we are pretty 
good at this. We have the highest response rate of any study we 
know of, and we spent between $250 and $300 per interview to 
find these folks after they left the system.
    Chairman Johnson of Connecticut. Since we are, for the 
first time, giving them real money for the program after age 18 
to 21, we certainly do have to require something other than 
that one interview that was really related to an old foster 
care program. It really doesn't reflect the kind of program 
that we are setting up. So, one of the reasons you just got the 
draft this morning are that there are a lot of things that have 
been discussed and negotiated around this kind of issue, and so 
I do look forward to your input in the next week as to what you 
think we should do in that area; also, as to what you think of 
the sections of the bill that say ``These are the kinds of 
services you can provide or these are goals,'' because it is 
not easy to describe in spite of the fact that you have 
probably Members in this Subcommittee who are more interested 
in these kids than often is the case in the Congress and know 
more about it. I find it hard to find a way to talk about the 
issue of personal maturity in the legislative language, and 
since in the end that is what this is all about, we do need to 
be able to do that.
    I have a couple of other questions, but I am going to come 
back to those if we have time. We do have another panel, so we 
want to be sure to get as much testimony in the record before 
one of our key Members has to leave.
    Ben.
    Mr. Cardin. Thank you, Madam Chair. Of course, it is a 
pleasure to have Ruth Massinga with us today. She was secretary 
of our human resources agency when I was in the State 
legislature. We worked very closely together, and she brought a 
lot of creative solutions to problems that we have in Maryland. 
It was our loss when you moved on, but it is nice to have you 
here today, so, welcome.
    I did appreciate your testimony as to trying to get better 
information on outcomes. Following on what Mrs. Johnson has 
said, it is important that we have adequate information to be 
able to evaluate how programs are working and whether 
additional resources will be needed, and we do look forward to 
working with all of you in developing that. We have language in 
our bill that requires HHS and the States to establish and 
track outcomes, so it is part of our interest, and we think it 
is very important.
    I am curious as to how you would rank the different 
obstacles that face young foster children who are aging out of 
foster care? Is it the lack of education? Lack of independent 
skills? Is it the lack of health insurance? Is it lack of job 
training? Lack of housing? I mean, I know all of these are 
factors, but could help us rank where you think the highest 
priorities of needs are for those children aging out of foster 
care? Who wants to take a crack?
    Mr. Kroner. I will jump right in on that. I think the 
number one thing that all these kids need is real life 
experience. They need to get out there and feel what it means 
to live on their own and to have that daily real life 
experience hit them on the head--budgeting their money, 
managing their time, controlling their friends, dealing with 
their family members, dealing with a real life landlord, real 
life tenants, and things like that. The second thing is I think 
we need to start a lot earlier. There is a provision in the 
bill to start at 14, and I think that makes total sense.
    What our county has done is we have a countywide self-
sufficiency program for youth regardless of where they are at--
foster homes, group homes--everybody starts at 16, and the kids 
that come from that program into our apartment program, you can 
tell that they really kind of understand what they are getting 
themselves into, but it is a combination of starting earlier; 
doing a lot of life skills training before the kids are placed 
out on their own; placing them out on their own; doing life 
skills on top of that, and then I think then you will see 
things happen.
    Ms. Massinga. I think, though, Mark, let us not 
underestimate the fact that there is continuity of 
relationships, because part of what I think Mrs. Johnson and 
you, Mr. Cardin, alluded to is how do you bring it all 
together? All those things that you ticked off are needs, but 
if kids don't have adults that they trust to help them figure 
out, ``OK, I made this mistake, so what am I going to do 
tomorrow, because I still have this need around health care; I 
still have a need around housing?'' That is where they get in 
trouble. So, it is the lack of knitting it all together and 
having adults who systematically help them figure it out, just 
like your own kids that your program addresses. You know, if 
they make a mistake, you have got to have real life 
experiences, but you also have to have those experiences under 
the tutelage of people who will help you and say ``It is not 
fatal. Pick yourself up and move ahead.'' And, frequently, we 
give people skills but not human support, and so they fall 
apart.
    Ms. Fagnoni. In our examination of research, we do note 
that the research that has tried to look at outcomes and link 
different efforts of outcomes has shown that something really 
important is that youth complete high school before they leave 
foster care. So, there are some concrete sorts of actions that 
are most helpful if they can complete those before they are out 
on their own.
    Mr. Cardin. Mr. Courtney.
    Mr. Courtney. I would really agree with the argument that 
real life experience is very important. We found that training 
per se was not at all related to any of the important outcomes 
we looked at. Now, granted, this is one study in Wisconsin, and 
we are looking globally at the State of Wisconsin. We did find 
that youth who had engaged in some of the concrete experiences 
I talked about (they had their medical records; they had 
actually gone out and looked for jobs; they had had to deal 
with landlords) fared better in terms of employment and housing 
stability, and so forth.
    Another thing is I like the part of the bill that provides 
flexibility for providing housing, because we find a huge 
amount of homelessness and housing and stability in this 
population. My partner in this got involved in this kind of 
research, because he is a very prominent homelessness 
researcher, and he was struck by the high percentage of adults 
who are homeless who lived in foster care.
    And then, last, social support--sort of another way of 
talking about having stable relationships with adults. We find 
that social support is actually the best predictor in our study 
of favorable outcomes; that they report that they have various 
kinds of social support to back them up, the ones who don't 
fall through the cracks.
    Mr. Cardin. Well, I appreciate all of your testimony 
particularly as to specific State studies. Obviously, I was 
most impressed with the results from Baltimore County. Ms. 
Fagnoni, your conclusion is that those children who had 
participated in independent living did better in graduating 
from high school and finding employment. Do you know how many 
of the children who were aging out of foster care had an 
opportunity to participate in the program for independent 
skills?
    Ms. Fagnoni. I don't have the statistics on that specific 
program. I do know that of the 70,000 or so foster care youth 
who fall into the category of being in the age group close to 
aging out, that, perhaps, half of those receive some sorts of 
independent living services but a far smaller percentage 
actually receive some of the concrete types of assistance and 
are able to be in independent living types of programs and 
transitional housing programs that seem to be very helpful.
    Mr. Cardin. I would be interested--if you could make that 
available, I would be interested in seeing what percentage we 
are currently reaching in the jurisdiction I represent.
    Ms. Fagnoni. OK.
    Mr. Cardin. Thank you.
    [The information follows:]

    At the independent living hearing on May 13, 1999, 
Representative Ben Cardin asked GAO to provide him the percent 
of youth served under ILP in his congressional district. 
Unfortunately, Maryland does not keep statistics by 
congressional district. However, following is information on 
Baltimore City and Baltimore County. This information is for 
FFY 1998--the most recent year data is available.

------------------------------------------------------------------------
                                      Youth        Youth
             Location                Eligible    Served by     Percent
                                     for ILP        ILP         Served
------------------------------------------------------------------------
Baltimore City...................          878          823          94%
Baltimore County.................          165          135          82%
------------------------------------------------------------------------

                                <F-dash>

    Chairman Johnson of Connecticut. Mr. English.
    Mr. English. Thank you, Madam Chair. This has been a truly 
worthwhile public hearing and enormously informative. I can 
attest to the fact that I came into this with scant knowledge 
of the independent living programs for youth and foster care. 
This hearing has been helpful for me to appreciate, for one 
thing, how little we in Washington know about what is going on 
out there. I think there seems to be consensus on this panel 
that there ought to be some form of performance measurement 
applied to State programs that we fund. Can you comment--
starting with Mr. Courtney, on how difficult it would be to 
develop a worthwhile system of performance measurement, and 
what would be your thoughts on what would necessarily be 
included at a minimum?
    Mr. Courtney. The difficulty would really depend on what it 
was you wanted to know.
    Mr. English. What should we know?
    Mr. Courtney. Well, we should know certainly whether they 
graduate from school--that is relatively easy although not 
trivial to come up with that information. We should know about 
employment stability and housing stability, and we should know 
about institutionalization, because we find one-fourth of the 
males in our sample who were abused and neglected (they were 
not adjudicated delinquents) were incarcerated within a year of 
leaving the system. So, those are some basic things. 
Institutionalization history, education history, many States 
could get that information together. When you look at housing 
stability, employment stability, you have got to survey them, 
and the problem is they won't all be involved in your program. 
This is a problem with a lot of the research. We have research 
on people who choose or are able to participate in these 
programs, and you have a huge group that are not participating, 
and to get that kind of information on everyone would be an 
expensive proposition. To do it periodically, so that you have 
an idea, a representative idea, of what is happening in every 
State, I think is feasible and could be done with the funding 
you are talking about.
    Mr. English. Ms. Fagnoni, what would you add to that?
    Ms. Fagnoni. Well, I would agree that those are some of the 
key measures--graduating from high school, employment, 
obtaining and retaining employment, housing stability, and 
whether or not there are other poor outcomes, such as 
institutionalization, but I also agree that the difficulty lies 
more in trying to get some of the information than it does in 
sort of figuring out what the key things you want to know about 
people who are self-sufficient adults.
    Mr. English. Mr. Kroner.
    Mr. Kroner. Yes, I think most of what I was going to say 
has been said. I think that the issue--one of things I wanted 
to make a point of is that we have noticed that a lot of young 
people that didn't do well right after they left the program 
came back a year later and were doing really well, so I think 
that there is a problem here in the sense that you are going to 
see this roller coaster effect with these kids for a couple of 
years. The other fact is there is no control group since we 
can't compare this group to a normal group of teens that would 
be forced to go out on their own. Even whatever we find is not 
really going to give us a clear picture, but I think I would 
look at housing stability; I would look at involvement with the 
criminal justice system, and I would look at the involvement 
with the mental health system and any type of reinvolvement 
with the county welfare of State welfare systems.
    Mr. English. Is there any way of measuring the safety of 
the people that are participating in these programs?
    Mr. Kroner. If you could have contact with these kids, you 
could get a lot of information about how safe they felt and how 
safe they were and things that happened to them. Again, the 
issue is trying to find them once they are out of the system.
    Mr. English. Ms. Massinga, what do you think?
    Ms. Massinga. Well, I think the list that you have heard is 
a list that I agree with. To go to the question of how to 
gather the data, it seems to me that this is not unlike the 
issues that you are looking at as you look at what happens with 
people who are leaving public assistance, that the longer we 
look at it, if we have relatively decent data, we can start to 
make some judgments about what is happening, and you know that 
the States are beginning to step up to the challenge, not all 
in the same way, but States are beginning to really step up to 
the challenge of providing much longer term data about results. 
You can't get it all on everybody, as Mark points out--both 
Marks--but I think if there is some expectation that there is 
rigor associated with the measures--and you have heard about 
half a dozen which we all think are important, I think it is 
possible to start to develop the mindset in States and 
localities that outcomes, the results, are the real things that 
matter. So, I think that that is why you are focusing on 
accountability structures in that way as you have, as you tried 
to look at other systems particularly reform of public welfare 
is an important statement and signal for your Subcommittee to 
make that it is important to work on this issue of results-
oriented measures.
    Mr. English. Ms. Fagnoni, you made a comment during your 
testimony that you have discovered that in some cases group 
home regulations are an impediment to the implementation of 
independent living programs. Could you elaborate on that in my 
remaining few seconds?
    Ms. Fagnoni. For example, one of the things we found is 
that sometimes the utensils one would need to cook with are 
locked away, and when I inquired about the reason for that, it 
is a safety issue, and among cooking utensils are knives which 
could be used by one youth against another, but it clearly 
limits their ability to have practical experience in cooking 
which is a key element in independent living. So, that is one 
example.
    Mr. English. Do you run into other examples where State 
regulations create a barrier to independent living programs 
being successfully carried forward, and is there something we 
should ask the States to do in the way of deregulation that 
would make it easier to move independent living programs 
forward?
    Ms. Fagnoni. I think I don't have a great deal of detail on 
that. This is an ongoing study we are doing, and we have some 
anecdotal examples. That is something we could think about 
exploring a little more. I don't know whether people who are in 
the field have dealt with that.
    Mr. Kroner. Mr. English, yes, I think there are a lot of 
States that still do not allow youth to be placed into their 
own apartments without 24-hour supervision, and that is the 
biggest impediment to making something like this happen. They 
are so concerned about liability issues, and I think what a lot 
of States are doing is allowing the private nonprofits to take 
on that role and assume some of the liability for the 
individual placements.
    Now, we have a similar situation with a lot of our foster 
parents. They will not allow the youth in their homes to go 
into the kitchen, because they don't want them to mess the 
kitchen up. They won't let the kids use their washers and 
driers, so not only are these kids not learning from a regular 
family, they are being systematically kept from learning things 
that they are going to need to know. So, I think that there are 
policies at the program and there are policies at the State 
level that are blocking a lot of this from happening except in 
Ohio.
    Mr. English. Thank you. That is an important qualifier----
[Laughter.]
    And I thank the panel. Madam Chairman, I thank you for your 
patience.
    Chairman Johnson of Connecticut. Mr. Camp.
    Mr. Camp. I am not from Ohio; I am from Michigan, but thank 
you all for your testimony very much, and obviously the concern 
is that kids walk off a cliff after they leave foster care, and 
I really don't have any questions for you, but I appreciate the 
testimony, and I have read your statements. I may not be here 
for all of your verbal testimony, but I think obviously the 
idea of trying to have self-sufficiency for kids after they 
leave the foster care system is very important and getting the 
information to understand what their needs are.
    But I--when you hear that many of them are below the 
eighth-grade reading level at least in the Wisconsin-Madison 
data, I think that is a real concern, and I want to thank the 
Chairman for introducing this independent living bill and 
having this hearing, and I do want to work with the 
Subcommittee also particularly on the issue of health care and 
Medicaid, potentially, for some of the young people who need it 
transitioning out of what probably was a pretty difficult 
situation or they wouldn't have been in foster care in the 
first place, and hoping to see them become productive citizens. 
I certainly wasn't productive at 18, and I think many people 
aren't, and it takes a couple of years to get the skills needed 
to be productive. So, I want to pledge my efforts to work with 
the Chairman and thank all of you for your testimony. Thank 
you.
    Chairman Johnson of Connecticut. Mr. Watkins.
    Mr. Watkins. Thank you, Madam Chair. I would like to thank 
all of you for your dedication and interest in this 
legislation. I would like to share some of my experiences of 
having been a foster parent. We adopted a young lady when she 
was age 15. My wife and I had a home licensed and available for 
young ladies. You have them for a while, and you lose a chunk 
of your heart every time they leave. I think for every child 
there is a different variable. I think it is just like raising 
your own kids; they are all different. We never worry about 
messing up the kitchen; there are foster parents that probably 
do. I think our biggest problem, Madam Chair, is that we 
probably need more and better foster homes. We need more 
incentives for families who have been successful, to have 
foster children. Let me tell you, there is no one raised 
anymore poorer than I was as a kid. We had a hard time working 
things out as family, because a lot of the administrative 
people in the welfare program and DHS. They thought our family, 
because of its economic class, didn't qualify. Instead of 
looking at it as, ``Hey, if you have got a family that has been 
able to have some success''--and I don't want to be saying it 
is that successful, but it is a process to follow. I think, 
those children to go through instead of putting them back into 
a situation of just a little bit of survivability out there. We 
should give them a way that they can see and feel and touch and 
be a part of successful families. Families that have--maybe 
worked their way through college, maybe worked scrubbing floors 
and worked on farms and done all those things, but the children 
see that there is a work ethic there, too.
    Now, what that experience, Nancy, has done for the Wesley 
and Lou Watkins family, we ended up finally adopting a young 
lady, 15 years of age, who was going to be thrown back into a 
worse situation. We were fortunate enough, she came to us and 
said ``Will you adopt me?'' We said we would, and she is now a 
professional lady. We put every dollar back into a college 
account for her, every single dollar. I think that we need to 
look at how to lure more families into having foster children 
and possibly even adoption. I think some type of tax credits 
that would allow these type of families opportunities would do 
that.
    We had to try to make sure that the dollars--if I can just 
take a moment or two on this--didn't become a tax burden for us 
in bringing up that little girl. We wanted to let her become 
successful in her right. She didn't know who her father was; 
her mother was an alcoholic and a drug person, but now I would 
like to say she is a very professional person. She has given us 
a granddaughter, a Native American. I just think we have got to 
get more successful families in the foster care program and 
help them to have a little independence. We must try to figure 
out how we get some more solid families involved in trying to 
help one-on-one with these families.
    Madam Chair, I would like to really work in some direction 
along that line how we can lure more successful families into 
becoming foster parents. You know, it didn't pertain to 
everything, but I think every one of us in this room is 
different, and I think every one of these foster children is 
different.
    Chairman Johnson of Connecticut. Thank you. Thank you, 
Congressman Watkins.
    It is very frustrating legislating from the Federal level, 
because I honestly don't know how prescriptive to be or how 
clearly to delineate things, but when you tell me that foster 
parents don't want their kids to do the laundry, have they no 
understanding at all of what their responsibility is as foster 
parents? Wes' comments about he and his wife putting aside the 
stipends so these kids would have some savings is really 
wonderful. All my kids are asking, ``Could we have a say in how 
that money is spent?'' How do we get foster parents to teach 
kids if you have $100, go to the store, see what you would 
really like, see that you can get maybe one and a half garments 
with that significant amount of money, and then go back at the 
sales and compare and see how much further the $100 will go? 
So, they learn--take them to second-hand clothing shops. My 
kids both outfit all of their children at tag sales. It is now 
beneath them to pay full price. They won't even let me pay full 
price. When I go and talk to single parents about this, they 
think that somehow I am demeaning them by suggesting that they 
look at these other places. How do we teach this kind of 
economy? We all grew up on it, so we have no feelings about 
checking out those sources, but we don't teach this.
    On health care, most of our foster kids live in cities. 
There is not a city in America, big city, that doesn't have a 
community health center provided with Federal funds at which 
anyone over 18 can get everything but hospital care on a 
sliding scale fee. For them it would be free. Even if you pay 
the maximum cost for a full physical, it is $27. Why aren't 
we--talk about real life experience--walking them over there, 
helping them sign up, making sure they see their physician the 
first time. When you say hands on, I really see what you mean, 
but how do we also get the system to think about all the things 
there are you need to do just to run your life hands on and 
help them do that.
    Now, to get back to something that you brought up, Ms. 
Massinga, that really struck me. How are we going to get the 
agencies to cooperate and integrate better? And, most 
importantly, how are we going to get that larger family--I 
thought that was a very interesting point you made, and you 
just breezed over it in one sentence--it is absurd that we 
don't--just like when a kid now under the Safe Homes Act comes 
into the system, we get the larger family involved in thinking 
about how do we manage this child and how you get them out, and 
we do a lot more on welfare reform with kinship care. In other 
parts of the system, we are beginning to look at the larger 
family and where the resources are to support this child. We 
really do need to build that, and we don't have that yet.
    So, I want to just hear any of your comments on how do we 
create some continuity of relationships for that child in their 
larger community? What should be our responsibility in this 
bill to urge the States to have some continuity of relationship 
between the individual, the kid, and the system, and the 
integration of the resources and getting really some language 
about practical education, or how do we talk about that to 
ourselves so that the States will really think about that? We 
don't have very much longer for this panel, so I am throwing 
that out.
    I just want to throw out one other thing, then I will give 
you a brief comment, but please get back to us on these things. 
Once we get done with foster care, there are similar kids who 
are not under the State's charge, and they are brave, 
courageous kids. They can't live at home; they won't live at 
home the circumstances are so bad; they want to stay in high 
school; they are sleeping in cars; they are sleeping from one 
friend's house to another, because our shelters cannot accept 
them.
    And one last comment, we do in this bill prohibit the use 
of money for housing under 18. That is because that is the way 
the old system was. We may need to change that. So, think about 
those things, and if you want to make any closing comments and 
then get back to us on some of these things, but we need to do 
a good job on this, because we have got another group of kids 
out there we have got to think about next.
    Ms. Massinga. Well, you know, I certainly--and I am sure my 
colleagues--welcome the idea to think further about the issues 
that you have raised, but I want to say to Mr. Watkins, you are 
very right. One of the issues about this bill, I hope, is that 
we start to build some continuity over time between foster 
parents and extended kin so that the attachment they feel for 
these kids will help to create that web of relationships that 
help them do well. And if we can--one of the things we have got 
to do is figure out how to incentivize foster parents and value 
them, because we don't do that well in this country, by and 
large, and that is part of why these kids feel and we in the 
system act as if 18 is the place when you fall off the cliff 
with the relationships, and in real life that really doesn't 
work that way. So, I will be happy to think further about other 
ways to build on those kinds of----
    Chairman Johnson of Connecticut. And as you look at the 
final draft of the legislation, help us see where it is we need 
to say what. Anyone else?
    Mr. Kroner. Yes, I think extending the age to 21 is going 
to do us a world of wonders for establishing that continuity. 
It just gives everybody more time to get to know each other, 
and we have kids that are referred to us at 17 that are out--at 
17 and a half that are out at 18, and 6 months is nowhere long 
enough to get to know somebody much less develop a meaningful 
relationship.
    I think we also need to recognize the role that foster 
parents have played and adoptive parents in some cases in the 
lives of these kids and try to keep them involved with the kids 
when they move over to independent living; have some kind of 
incentive, even if it is financial, for those foster parents to 
maintain contact--have those kids over for dinner and things 
like that. That would make a big difference to both the 
independent living programs as well as the kids that are making 
that transition.
    Ms. Fagnoni. I think the focus on outcomes can help in the 
sense that to the extent that we can see more studies and get a 
better understanding of outcomes associated with different 
programs and then start to look at what do those programs have 
as elements that help achieve certain outcomes, I think that 
may help reinforce some of things you have heard today in terms 
of the need for the real hands-on experience and the concrete 
experience.
    So, I think you are right. It is difficult to figure how 
much you prescribe in terms of what goes to these kids, but I 
think your focus on outcomes can really help over time, at 
least, shed some light on what does and doesn't work.
    Mr. Courtney. I would like to really second that. I think 
it will be very difficult at this point to be very prescriptive 
in terms of telling the States, ``These are the things you need 
to do.'' However, I can say from Wisconsin that the example of 
providing data, concrete data on what has happened to kids has 
completely transformed that State's point of view on this 
subject. I mean, there was very little attention to it, and, to 
their credit, the minute these data came out, the State said, 
``Well, we have to do something about this.'' There was a lot 
of media attention to it, and now we are putting together a 
commission that is going to meet around the State; share this 
information; get information from community members, foster 
parents, foster kids, and completely revamp the system in 
Wisconsin, I expect. That is certainly the intention. So, I 
think concrete data periodically on how kids are actually doing 
is enormously powerful information to have, and we simply 
haven't had that.
    Mr. Watkins. Do we have a study, because we should be 
measuring outcome, I think--I know I am out of order here, 
Madam Chair--but we need to be able to measure it. You know, my 
wife and I, we lost--I felt like I was a failure for the first 
three or four or five foster children we had, and each time one 
of them left, thank God my wife was insistent on the last young 
lady, because she is the one that later we ended up adopting, 
and we got a wonderful daughter out of it, but you lose part of 
it. You just don't want to go through it again after you lose 
your heart enough times, but we need some way to have a way to 
measure successes, and I think it would breed success. It is 
just like, Madam Chair, trying to get families make it more 
conducive to get families that have achieved certain success to 
bring young people in those so they can witness that. They can 
witness success and role models and realize, hey, they can do 
it, and I think we can get maybe the outcome up a little higher 
and keep raising that on up if we possibly can, but I would 
like to look at that and see.
    Chairman Johnson of Connecticut. I thank the panel very 
much for your testimony and its conciseness, and I look forward 
to any comments you might have on the draft which is still 
evolving. Thank you.
    And now it is my pleasure to call as a witness our Majority 
Whip, Tom DeLay, who comes to this subject with a great deal of 
personal experience as a foster father, and thank you, Tom, for 
your long interest in this subject and your encouragement and 
support.

STATEMENT OF HON. TOM DELAY, A REPRESENTATIVE IN CONGRESS FROM 
          THE STATE OF TEXAS, AND HOUSE MAJORITY WHIP

    Mr. DeLay. Well, thank you, Madam Chairman. I am really 
excited and confident that you are doing this bill and that you 
are holding this hearing, and I do appreciate the opportunity 
to speak here today on behalf of the Foster Care Independence 
Act of 1999, introduced by yourself, Madam Chairman, and the 
Ranking Member, Ben Cardin.
    It is very difficult to put my experiences down in a short 
presentation, and I wanted to touch on a couple of issues, but 
having foster children opens your eyes to what is going on in 
the world with our children, and I have got a lot of story to 
tell, but I will try to keep it as brief as possible.
    As you know, this legislation recognizes that youth who are 
turning 18 and leaving foster care, they experience serious 
problems trying to make it on their own. They are not prepared 
by the present system for that terrible word called 
``emancipation day.'' We just really need to change that word. 
It frightens them when you talk about emancipation. It sort of 
implies that they were incarcerated in the foster care system. 
Many of those youth have not even graduated from high school; 
they are not employable, and they lack the basic skills like 
cooking and making a paycheck last through the week. It has 
been our experience that children we had gotten from other 
foster homes were not even taught how to shop for clothes. They 
were issued t-shirts and blue jeans and never had been into a 
store and didn't even know the sizes that they wore much less 
being turned out on the street to fend for themselves when they 
don't even know how to shop for clothes.
    When these young people leave foster care, they are not 
only leaving the emotional support of foster families, but they 
are also forced to leave behind their housing and their 
Medicaid. The Johnson-Cardin legislation is vitally important, 
because all of these problems are addressed in this proposal 
while at the same time you allow the States to design and 
conduct their own programs, and I think that is vital and key 
to the success that you are trying to reach.
    I am also pleased that the Subcommittee has worked so hard 
to produce a bill that will be revenue neutral before it leaves 
this Subcommittee, yet will effectively address the imminent 
needs of our children aging out of the foster care system. I 
plan to cosponsor this legislation, but it is not as a 
Congressman that I am here today but as a foster parent.
    My wife, Christine, and I currently are blessed with two 
adolescent foster children, the older of whom will be 
emancipated on June 24, and I wanted to share with you several 
of the situations that the current system has placed us in. Let 
me just say at the outset my concern is not for our family. I 
share these examples with you on behalf of other foster 
families who may not have the financial means to address some 
of these issues. I believe that too many adolescents leave 
their foster homes unable to meet their most basic needs for 
survival. It is my experience that the current system leaves 
children who exit the foster care system without the skills, 
the tools they need to live independently.
    They also--the system leaves children in deep fear. One of 
the most traumatic things that happened to my foster daughter 
was the day that we told her that she would have to start 
planning for emancipation day. She went back down to her room--
we didn't know this till later--and cried herself to sleep, 
because she was scared to death, and she is about to be 18. And 
the second traumatic experience for her was meeting with CPS, 
Child Protective Services, and making her make decisions and 
making her face the fact that on June 24 she was on her own. My 
oldest foster child, though, she will attend college starting 
in August; she is officially emancipated in June, and of course 
we will care for her for the interim 6 weeks, but there are 
many foster kids whose foster families can't afford to keep 
them after the funding stops. She will also lose her Medicaid 
benefits in June, and I just ask the question, what do children 
who have medical needs do after emancipation?
    I am fortunate enough to be able to care for my foster 
daughter's needs after her emancipation, but, again, I am 
worried about all those foster children whose foster families 
do not have the resources to pay out of pocket for medical 
expenses, and an important skill to have as these kids make the 
transition to adulthood and independence and attempt to find 
jobs or attend college, is the ability to even drive a car. We 
recently enrolled our two kids in driver's ed and discovered 
that we had to pay $570 for their course out of our pocket; 
again, not a problem for us, and we did it willingly, but 
circumstances might be very different for another family, and 
it is for those families that this bill is so vital.
    We are sentencing our kids to failure and chronic 
dependency if we do not arm them with the skills and the 
resources that they need as they transition out of foster care. 
The result time and time again is more of these young adults 
are on welfare; more former foster kids are homeless, and more 
and more of them are in jail and committing crimes. We must 
empower State and local governments to cut bureaucracy with 
increased flexibility and enable them to provide the children 
in our foster system with a transition system that actually 
prepares them to live as independent functioning productive 
members of our society, and I thank you, Madam Chair.
    [The prepared statement follows:]

Statement of Hon. Tom DeLay, a Representative in Congress from the 
State of Texas, and House Majority Whip

    I am Tom DeLay, House Majority Whip from the 22d District 
in Texas.
    Madam, Chairman, I appreciate the opportunity to speak here 
today on behalf of the Foster Care Independence Act of 1999 
introduced today by yourself and Ranking Member Congressman Ben 
Cardin.
    This legislation recognized that youth who are turning 18 
and leaving foster care experience serious problems trying to 
make it on their own. Many of these youth have not graduated 
from high school, are not employable and lack basic skills like 
cooking and making a paycheck last through the week. When youth 
leave foster care they are not only leaving the emotional 
support of foster families but are also forced to leave behind 
their housing and their medicaid. The Johnson-Cardin 
legislation is important because all of these problems are 
addressed in this proposal while at the same time allowing the 
States to design and conduct their own programs.
    I am also pleased that the committee has worked so hard to 
produce a bill that will be revenue neutral before it leaves 
committee, yet will effectively address the imminent needs of 
our children again out of the foster care system.
    I plan to co-sponsor this legislation, but it is not as a 
Congressman that I am here today, but as a Foster Parent.
    My wife and I currently are blessed with two adolescent 
foster children, the older of whom will graduate from high 
school June 24th.
    I want to share with you several of the situations the 
current system has placed us in.
    Let me say at the outset, my concern is not for our family, 
I share these examples with you on behalf of other foster 
families who may not have the means to address some of these 
issues.
    I believe that too many adolescents leave their foster 
homes unable to meet their most basic neneds for survival.
    It is my experience that the current system leaves children 
who exit the foster care system without the skills and the 
tools they need to live independently.
    My oldest foster child will attend our local community 
college starting in August. She is officially ``emancipated'' 
in June. Of course, we will care for her in the interim 6 
weeks; but there are many foster kids whose foster families 
cna't afford to keep themn after the funding stops.
    She will also lose her medicaid benefits in June.
    What do children who have medical needs do after 
emancipation?
    I am fortunate enough to be able to care for my foster 
daughter's needs after her emancipation.
    But again, I am worried about the foster children who's 
foster families do not have the resources to pay out of pocket 
for medical expenses.
    An important skill to have as these kids make the 
transition to adulthood and independence, and attempt to find 
jobs or attend college, is the ability to drive a car.
    We recently enrolled the kids in Drivers Ed and discovered 
that we had to pay the $570 dollars for their course out of 
pocket. Again, not a problem, and we did it willingly.
    But circumstances might be different for another family, 
and it is for those families that this bill is so vital.
    We are sentencing these kids to failure and chronic 
dependency if we do not arm them with the skills and the 
resources they need as they transition out of care.
    The result, time and again, is more of these young adults 
on welfare, more former foster kids homeless, and more in jail 
and committing crimes.
    We must empower state and local governments to cut 
bureaucracy with increased flexibility, and enable them to 
provide the kids in our foster system with a transition system 
that actually prepares them to live as independent, 
functioning, productive members of society.
    Thank you.
      

                                <F-dash>

    Chairman Johnson of Connecticut. That is a very interesting 
story about even the driver's license. We take that so for 
granted.
    Mr. DeLay. Yes, my daughter was 17 years old. The other 
problem, too, is no one allows them to drive, because your 
insurance goes through the roof, and, therefore, none of them 
have driver's licenses. And the second is the foster care 
agency--this is all before emancipation--doesn't want the 
liability of the child being in a wreck. Our foster care agency 
had the unfortunate experience of a foster mother allowing her 
daughter to drive the car having never driven the car, and she 
had a wreck and was killed. They almost were out of business. 
So, now they don't want any of their kids to drive. So, when 
they turn 18, they can't even drive. Even if they wanted to, 
they can't drive.
    Chairman Johnson of Connecticut. Mr. Watkins. Excuse me, 
Mr. English.
    Mr. English. Madam Chair, I don't have any questions, but I 
thank Mr. DeLay for coming in and walking us through some of 
his personal experiences which I think are very compelling. We 
very much appreciate your insight, sir. We hope we are going to 
be able to produce legislation that will go the distance. It 
has clearly already attracted bipartisan support and with the 
leadership of the Chair, hopefully, the House will act on this 
legislation this year. So, we thank you for being with us.
    Mr. DeLay. Well, I will do my part, Mr. English, to make 
sure it is going to the floor.
    Chairman Johnson of Connecticut. Mr. Camp.
    Mr. Camp. Well, thank you for--I am way down here. I am 
still in the room, though; that is all that counts. [Laughter.]
    Chairman Johnson of Connecticut. This is the arbitrariness 
of the Subcommittee's election system. He has actually been on 
this Subcommittee longer than most of us.
    Mr. Camp. Thank you very much for your testimony and for 
what you are doing for your foster children, because your 
support of this issue and these concerns will help move this 
along in the Congress. You know, it is interesting, because I 
have had other foster families tell me about the driving issue, 
and it is tough to get on your own without being able to get 
some work especially in rural areas in this country where there 
isn't any mass transportation.
    So, thank you for being here and for your testimony, and I 
look forward to working with you on this legislation. Thank 
you.
    Mr. DeLay. I just might say, I thank you for your comments, 
Mr. Camp, but I also say it is very, very tough to have a 17-
year-old boy that wants to drive and telling him he isn't 
driving, that creates many problems inside the home. 
[Laughter.]
    Chairman Johnson of Connecticut. That is right. Mr. 
Watkins.
    Mr. Watkins. Tom, I am interested in what you are doing. It 
is a blessing. My wife and I have gone through that as we have 
shared and we opened our home for girls. They provide all kinds 
of unbelievable experiences, and I guess you try to work 
through it.
    You know, we are fortunate. Like you say, you were a 
businessman before you came here, and you are now in Congress, 
and I was a businessman and now Congress, and we are able to do 
some things, and thank God that we have been fortunate enough 
to do that. But how do we attract more families?
    We are a product of our environment, and, believe me, I 
grew up in a small community of less than 200; everyone knew 
each other; I mean, everybody. However, let me tell you, I do, 
though, worry and have laid awake at night over how do you save 
inner city kids? They have no chance of having a role model in 
many cases, and how do you give them a chance to see the other 
side of that mountain, that there is something there? 
Fortunately, my wife, Lou, and I--I married a preacher's 
daughter, she has a heart. I will be very honest, when we lost 
one of our foster children, Debbie--we had her for 11 months, 
and she ran away, I refused to have any more foster children. I 
told my wife, ``No.'' You know, she called me when I was in the 
State senate and says, ``There is a young lady named Sally that 
needs a place to stay,'' and I first said, ``No.'' She said to 
me, ``So, you mean you will not let Sally come over for 
dinner?'' ``No, I didn't say that Lou. Yes, she can come for 
dinner.'' Well, she put Sally right across from me. [Laughter.]
    All during that night, I had to sit there over dinner and 
look at this little, beautiful, young lady that had come to our 
house with only a small brown paper sack of clothes; that is 
all she had. Well, when we did the dishes, my wife said, ``What 
do you think?'' And I said, ``Let her stay.'' She is now our 
daughter, fortunately, and has a beautiful granddaughter for 
us. We put every dollar back that came to us as foster parents 
into a college fund, so she knew that she had a way of getting 
a college education. As the daddy, so to speak, I thought she 
should have majored in home economics. Right? Most girls 
should, right? [Laughter.]
    Old-fashioned dad. When she came home from the first month 
of college and said, ``Daddy, if you don't let me major in 
agriculture, I am going to quit.'' So, I said, ``You go get 
your degree in agriculture; I want you to get a degree.'' She 
now is a very professional person in farm finance work.
    How do we get more successful families involved in doing 
foster care and all? Many of our parents--and this is not all 
bad, I understand--but many of them are really low-income 
people that unfortunately have not ever been able to accomplish 
with education and they are needing to use what money comes in 
of dollars to exist. So, the day comes when they have to let 
them go, because it becomes a burden. They come in your home 
and in 6 more weeks on down the road you are going to do it, 
because you have to bridge the gap, and it is the best thing 
for that child. And I think we were trying to say what is the 
best thing for the child even if we had to keep her another 
year or 2 years. It doesn't matter, because we put every dollar 
back into a college fund for this young lady that we adopted 
then as our daughter. We had one heck of a time trying to adopt 
her, because of the complications from foster care to being 
able to adopt. It was a terrible experience going through that, 
but I think if we could give them--and that is why I was 
interested in the measurement of success--how do we allow them 
to bridge the gap, so they can become successful young people? 
There are a lot of them that have got tremendous ability.
    Mr. DeLay. Well, Mr. Watkins, first of all, I want to hire 
your wife for the Whip organization; maybe that is how I can 
get your vote. [Laughter.]
    I now know how to get to you. [Laughter.]
    Mr. Watkins. You usually get results, too.
    Mr. DeLay. Very quickly, I have the same concern. I have a 
lot of criticism of the foster care system, not of the 
individual people, but the system itself is about to fail, 
because I have seen in associating with foster parents, a lot 
of foster parents--in fact, it was exhibited in the foster home 
that our boy came from--they are doing it for the money, and 
they are warehousing the kids; they are sticking them in rooms; 
not allowing them to come out; not teaching them a thing, and 
just collecting a check, and we have to address that someday, 
but the other side, too, is--and it is the reason that I have 
started becoming very vocal--my wife and I decided early on 
when we got involved with abused children many years ago that 
we wouldn't tell anybody, because we didn't want people to 
think that we were doing it for politics----
    Mr. Watkins. Right, right.
    Mr. DeLay [continuing]. And the more we got into it and the 
worse we saw, we felt like that I was put here for a purpose 
and maybe this is the purpose to raise the visibility of what 
is going on with our abused children, and the more and more 
that I speak out and have spoken out just in the last few 
months, the more people have come to me, people of means that 
have come to me and said, ``You know, I have got a big, empty 
house, and I could do this. If you can do it, I can do it.'' 
And they start checking into it, and it helps the local 
organizations--in our case, Child Advocates of Fort Wayne 
County and others in our foster care system, Houston 
Achievement Place--to recruit, because we are giving them names 
and those kinds of things, and it is like the old starfish 
story--you know that story, right? Where the father and the son 
were walking on the beach, and the beach was littered with 
starfish, and the father picked up one and threw it back in the 
sea, and the son said, ``Well, daddy, what are you doing that 
for? You will never be able to pick up all these starfish and 
throw them out to sea; it doesn't matter?'' And the daddy 
looked down at the son and said, ``It matters to them.'' And if 
we do it one kid at a time, one foster home at a time, we can 
make a huge impact.
    Mr. Watkins. The same reason, though. I didn't go public a 
lot earlier, because I thought people would think I was doing 
this politically. I probably talked more about it right here on 
this Subcommittee the last 2 years than I have any other time. 
In fact, I kind of fell in this thing. I didn't really know 
this was going to be part of that Subcommittee, and maybe there 
is a reason for it. I think there is a lot of additional things 
that we all can do to help elevate that and make it--notch it 
up a lot more in success, and I appreciate what you and your 
family are doing, and maybe we can----
    Mr. DeLay. Well, I appreciate that. I will just close with 
saying, Madam Chairman, that I feel very, very strongly that 
you cannot disconnect the community involvement. There is a 
role for government to play in dealing with abused and 
neglected children, but the most effective success with these 
children come from organizations that raise their own money 
from their own communities and connects people to people by 
doing that, and people are interested in a young person as that 
person and that name and not a number, and we can never ever 
discourage that. We should focus on community-based programs, 
certainly overseen by government programs, but we should never 
ever discourage communities from raising their own money, 
getting involved, and running their programs.
    Chairman Johnson of Connecticut. Well, I thank you for your 
testimony and for your experience and consider it a great asset 
to our Subcommittee that Wes has had direct experience and you 
have direct experience. Passage of the Adoption and Safe 
Families Act 2 years ago is making an enormous difference----
    Mr. DeLay. Yes, it is.
    Chairman Johnson of Connecticut [continuing]. In breaking 
down the barriers for foster parents to adopt children, and 
actually that is where the growth is in adoptions, and that is 
one of the big centers of growth in adoptions. And, also, that 
business of the bill requiring a 15-month plan and getting kids 
out of homes that are never going to come around for them and 
into permanent homes, so we hope that we will reduce the flow 
of kids into foster care, and we hope we will deal better 
through this bill with older kids who have been in foster care 
for a long time, and then there is a way to begin looking at 
how we do fund the States so that being a foster parent could 
be more like being a day care provider; something that requires 
you to provide a certain level of education and actually pays 
you more than just the mere stipend that we currently pay and 
carries a lot more responsibility with it.
    I don't know what the answer is, but I think your point 
about community is very important. This business of placing 
kids in a community 25 miles or 50 miles from where all their 
friends are and ripping them out of one high school where they 
are being successful because now they have to move to a home 
that is in a different community. It is the most disheartening 
thing to talk to kids who have finally stabilized themselves, 
and then have the worker appear 1 day to completely throw the 
pieces of their lives up in the air again. So, there is a lot 
of work to be done on the system itself, but part of the 
problem is the rigidity of how we fund it, and we do have to 
approach that.
    As to your comments on this bill, we certainly will pay for 
it, but we are about $130 million short of being able to make 
sure that the kids can participate in Medicaid, and I think we 
do have to find a way to make sure that when they turn 18 they 
don't lose access to health care, because adolescence is such a 
very, very important time to learn to take care of yourself 
physically and also a critical time to deal with certain mental 
health and substance tendencies that really are the difference 
between making it as an adult and not making it.
    So, thanks for your interest and support. We appreciate it.
    Mr. DeLay. Thanks very much.
    Chairman Johnson of Connecticut. The final panel, let me 
bring forward Eileen McCaffrey, executive director of the 
Orphan Foundation of America; Kelli Sutton Block of the People 
Places of Charlottesville, Charlottesville, Virginia; Sonja 
Matheny, student at North Carolina Central University, Center 
of Keys for Life Program, Maryland, and Montrey Bowie, a high 
school student from Ellicott City, Maryland, Our House program: 
and my colleague, Mr. Cardin, is due to return any minute. We 
are going to start with Eileen McCaffrey from the Orphan 
Foundation.

   STATEMENT OF EILEEN MCCAFFREY, EXECUTIVE DIRECTOR, ORPHAN 
            FOUNDATION OF AMERICA, VIENNA, VIRGINIA

    Ms. McCaffrey. Madam Chair, thank you for having me, 
Members of the Subcommittee. I am very, very pleased to be here 
today. At this point, nearly every one of my buttons have been 
pushed. You have raised issues that I think about, I breathe, I 
sleep----
    Chairman Johnson of Connecticut. Not exactly the buttons 
you would expect of the Ways and Means Committee unless it is 
to set tax policy. [Laughter.]
    Ms. McCaffrey. Right. So many of the things that have been 
raised here today have answers. They are not easy, but there 
are things we can do that will make a difference. In reference 
to this bill, you have done a really good job. It is quite 
obvious that you have listened to the kids. We hear them 
throughout this bill. The fact that you put in specific 
language about independent living programs and things they 
should cover--hard skills--that is important. You touched on 
the issue housing, money, support services for kids till 21, 
thank you.
    The framework flexibility you have defined with these 
issues and goals must be addressed with independent living 
programs. The couple of things you asked about as far as 
reporting and what is reasonable to expect. We need to involve 
the kids. We need to get them to understand that them answering 
these surveys, them participating in the program is a way that 
they can give back. I have personally known over 1,000 foster 
children, and 999 of them want to improve the system. If we 
build them into the system, if we ask them to participate as 
equals, as stakeholders, they will absolutely help define 
outcome, and they will answer those surveys. One of the other 
issues brought up was how to make these programs more 
effective? Again, involve the children. Involve community 
groups, involve adoptive parents.
    Right now, programs are defined by people, by program 
experts, and they don't necessarily meet the needs of the kids. 
A number of years ago, I was at a conference, and a woman from 
California was saying they would use their State independent 
living money to hire a doctor--it was a girl's program with 
gynecologists--to see the girls. So, I politely asked her, 
``Where are you?'' assuming they were in rural California. And 
she said, ``We are in L.A.'' I couldn't believe it. I couldn't 
believe it. And I said to her, ``Well, what about the clinics? 
Those girls will have to use these clinics in a couple of 
months.'' ``Well, it would be easier,'' and she just kept 
telling me it would easier, and I kept saying, ``Easier for 
who?'' And that is the point. Programs have to be designed with 
the kids in mind.
    Much of what was said today was about the different groups 
of kids, and, yes, there are absolutely a number of low 
functioning foster youth, and there are high functioning foster 
youth. One of the concerns I have is that independent living 
programs will start creaming the crop. Those kids want to stay 
in care, because they have reached a level of understanding 
what they can get from the system, and I don't mean that in a 
negative sense. They realize they need more support; they will 
stay in care. It is the kids who have been let down so often, 
who are so angry, and they have not connected with anyone in 
the system that will leave. So, I think States--I think the 
reporting mechanism is critical; can't stress it enough. I 
think they have to be held accountable similar to the ways we 
are looking at schools and doing scorecards on those, the 
American public deserves to know the billions of dollars are 
spent in foster care, and that will only be told with outcome. 
So, please--and that is one of the things that has to stay in 
this bill.
    We would also like to see more innovative programs being 
highlighted and used as models; programs that absolutely stress 
work and career training. There is a program called Our House 
in Maryland that you will hear from. It is built around work, 
and by giving the kids an idea of what employment they will go 
into, they can effectively do independent living skills; they 
can effectively do school, GED work. I think unless we start 
talking to these kids about apprentice programs, about all the 
different options, we are going to lose too many.
    Last, I would like independent living programs to better 
train--I think the whole system has to gear everyone involved 
in a foster kid's life in the independent living concept. 
Foster parents need to be trained as group home workers who are 
often very low paid and underskilled. You have to understand 
the concept of independent living, and they themselves many 
need some training. They may not have made some good choices 
along the way or fulfilled their process. It is not reasonable 
to expect them to help the kids do it unless we train them.
    Additionally, there are--this country is founded on 
volunteerism. People call my organization every day saying, 
``How can I help?'' There really needs to be mechanisms for 
volunteers and mentoring. More than anything, that is what 
these kids need. They need relationships with people, and then 
they will come back to the system, and they will tell them 
their outcome.
    As we talked about--as Mr. Watkins talked about recruiting 
foster parents, I have some strong ideas on that. We can do 
that; we can do better, but the system has to be opened up. We 
have to take it away from child welfare experts and make it 
more community based. Let those experts share their expertise, 
but let us learn from parents who have successfully raised 
children. Let us take from existing resources--nonprofits that 
are in the community, church groups, business associations. 
There are so many resources in this rich country that to think 
our foster children are going without is a tragedy.
    Most of what needs to be said has been said already, and I 
do just want to reiterate that these children are assets, but 
they are falling through the cracks, and we all lose, and I 
think we could work together. I think that States need the 
flexibility, but they need to be held accountable, and they 
need to better incorporate existing resources into their 
programs rather than constantly creating new. Thank you.
    [The prepared statement follows:]

Statement of Eileen McCaffrey, Executive Director, Orphan Foundation of 
America, Vienna, Virginia

    I would like to begin by thanking you Madam Chairman and 
Rep. Cardin for your work on this bill and say it will increase 
much needed services for a nearly forgotten group of American 
teenagers. We as a country must begin to value the potential of 
foster youth and see them as an asset. This will require 
increased monetary investment and emotionally supporting their 
dreams by nurturing and guiding them through the array of 
choices they face as young adults.
    As Members of this esteemed committee each of you are well 
aware that too many of our nation's former wards of the state 
end up as grim statistics. When these kids lose, we all lose. 
Whether you are look at the bottom line and see annual loss of 
productivity or believe there is a moral obligation to provide 
quality services, the fact is we have a vested interest in the 
25,000 children that annually age out of foster care.
    The $140,000,000 expenditure proposed in this bill will 
support states' initiatives to better serve foster youth ages 
16 to 21. You have wisely provided concrete guidelines after 
hearing foster youth's frustration at being ill prepared for 
the work world and post secondary education and training. 
Additionally, you realize foster teens have not been given 
enough emotional and financial support as they take those first 
steps toward independence and adulthood.
    The bill gives states the flexibility they need to design 
and implement successful and innovative programs. Yet, within 
the framework of flexibility you have clearly defined the 
issues and goals that must be addressed by independent living 
programs nationwide. The Orphan Foundation of America supports 
the specific language included in section 477. We applaud the 
emphasis on hard skills such as budgeting, substance abuse 
prevention, career and goal planning, and post secondary 
preparation for youth ages 16 -18. Moreover, thank you for 
recognizing the need to provide financial, housing, counseling 
and other support services to youth until they turn 21.
    This bill directs social services to develop programs that 
meet the needs of the whole child, including emotional and 
social needs. Every foster youth should have the opportunity to 
develop relationships within their community that will provide 
them with personal and emotional support. Children aging out of 
foster care desperately need friendship that will not end when 
their case is closed. Successful Independent Living Programs 
are have a multitude of community partners and devote resources 
to recruiting and training mentors, life skills trainers, 
employment and internship sponsors.
    I also believe this bill does due diligence with the 
American tax payers money by allocating $1,500,000 for review 
and reporting. The detailed data you request is not cumbersome 
or overwhelming. Complete data collection will help all 
interested parties identify trends, spot weaknesses and 
deficiencies that can be corrected, and recognize efficacy. 
Given the total expenditures on the foster care system it is 
incumbent upon social service agencies to make this information 
public record.
    This is a good bill that provides a much-needed infusion of 
money into programs that are critical to the success of our 
nation's foster teens. The three recommendations I would make 
to the committee are:
    1) Do not lessen the reporting requirements. Consider it an 
annual health care checkup, some states will leave with a clean 
bill of health while others work with the Department of Human 
Services to find treatment and remedies for their shortcomings. 
The U.S. taxpayer deserves to know the outcome of foster youth.
    2) Allocate pilot project funding for innovative training, 
work and intern programs that address the needs of lower 
functioning foster youth. States could use this money to 
support partnerships with businesses and existing nonprofits 
that train youth for careers before discharge. The Maryland 
based OUR HOUSE Youth program trains young men to be 
carpenters; this model could be replicated. Programs should 
help youth begin apprenticeships in culinary arts, welding, 
etc.
    3) Direct states to incorporate independent living 
education into training for foster parents, group home workers 
and case managers. Everyone involved in foster care must begin 
to realize they are a youth resource in this ongoing process 
that begins the day the youth enters care.
    Members of this Subcommittee, I appreciate the opportunity 
to share my opinions with you. On behalf of the many foster 
teens and volunteers who work with these youth through the 
Orphan Foundation of America thank you for developing and 
supporting this bill.
      

                                <F-dash>

    Chairman Johnson of Connecticut. Thank you very much.
    Ms. Block, from the People Places of Charlottesville--
beautiful city, beautiful town.

       STATEMENT OF KELLI SUTTON BLOCK, PEOPLE PLACES OF 
           CHARLOTTESVILLE, CHARLOTTESVILLE, VIRGINIA

    Ms. Sutton Block. Yes, thank you. Jenny was gang raped at 
12 and never told anyone, and her mother kicked her out of the 
house, because she was failing school and acting out sexually. 
She is now 19; was in independent living for a year, and her 
case was closed a year ago when she couldn't stay in school.
    Lance was home schooled by his father until he was 11 and 
beaten when he didn't know the right answer, while his blind 
mother sat in the next room. He just turned 18 and lives in an 
independent living program.
    John's mother has been in and out of jail for drugs his 
whole life. He has never met his father, and he saw his sister 
murdered in his home when he was 10 years old. He is now 15 and 
will begin independent living services next year.
    My name is Kelli Sutton Block, and these are some of the 
children with whom I have met on a weekly basis. I work for 
People Places which is one of the oldest therapeutic foster 
care programs in the Nation. Today, I will tell you what we at 
People Places see as the essentials to any successful 
independent living program, and I will tell you briefly about 
the program we have developed to meet these needs.
    The primary goal of an independent living program is to 
prepare adolescents in foster care to lead healthy, productive 
lives. In order to do this, we have identified three critical 
elements of successful independent living programs. Those 
elements are that the program must be individualized to the 
foster adolescent; they must be based in reality, and they must 
be therapeutic.
    To be successful, an independent living program must be 
individualized. Adolescents in foster care span a vast range of 
skills and abilities. What works for one child will not 
necessarily work for another. Jenny, for example, with an IQ of 
80 and a fear of open spaces will have very different needs 
from Lance, with an IQ of 120 and a history of aggression. 
These children need to be worked with individually. Each 
adolescent should have a customized, independent living plan 
with specific treatment goals to emphasize the child's skills 
and account for his or her deficits. This, of course, calls for 
small caseloads for independent living workers.
    Second, if we are truly expecting to improve the lives of 
these adolescents, we must develop programs that are based in 
reality and are not just built to ease our collective 
conscience.
    Three aspects of independent living programs require 
practical and realistic solutions. First, monthly stipends must 
be sufficient. Jenny, living on a stipend from the State, had 
$160 a month after paying her rent and utilities; that is $5.30 
a day to pay for all of her food, transportation, and personal 
items. To create an expectation that a child should become 
independent and to not give him or her enough money to do so, 
is to create disdain and distrust for the system and for the 
people who work within it.
    Second, independent living programs must support older 
adolescents as they learn to get and keep a job. As noted, 
children from foster care come from a variety of backgrounds. 
There are many children for whom postsecondary education is 
completely unrealistic. For these children to simply hold a 
decent job for the rest of their lives would be an 
unprecedented victory in their families. We must support them 
as they learn to do this.
    Third, all independent living adolescents must have health 
care coverage. Learning to take responsibility for oneself is a 
critical part of becoming independent as you mentioned. We must 
give these children the means to do so. Two weeks ago, John 
broke his ankle. If he were not covered by Medicaid, something 
as simple as this would have quickly put him into debt adding 
to his already considerable stresses.
    Independent living programs must be therapeutic. They must 
address the social and psychological needs of adolescents in 
foster care as well as their practical needs. As we all know, 
many foster children come from tragic childhoods of abuse and 
neglect. Teaching a child budgeting skills is a total waste of 
time if he cannot effectively express himself; cannot endure 
stressful situations, or cannot summon the courage to get out 
of bed in the morning.
    Jenny stopped by the other day and intimated that she is 
finally ready to talk to someone about when she was raped 7 
years ago. Her case was closed last year, however, and she no 
longer receives Medicaid or any health care services. She makes 
6 dollars an hour as a chambermaid in a hotel.
    If these children are ever expected to participate in 
society, they must have access to mental health services until 
they are at least 21. As young adults not even old enough to 
drink alcohol, these children cannot be expected to pay for 
psychotherapy. Indeed, they won't be able to afford it, and 
society will pay the price one way or the other.
    At People Places, we have developed a transitional 
independent living program called the Guide Program for foster 
adolescents who are not quite ready to live on their own. In 
the Guide Program, a teenager in foster care rents a spare room 
from a responsible, trained adult. This adult functions as a 
mentor, a friend, a sounding board, and safety net for the 
teen. The 18 months they spend together is a way for the teen 
to learn experientially what it takes to live on one's own. In 
addition, each teen has a case manager who helps them set 
weekly goals in the domains of home, education or work, self, 
and community. Their weekly allowance is determined by their 
progress on these stated goals.
    Over time, these teens take on increased responsibility and 
meet with their case manager less frequently. They also meet in 
peer, skill-building groups to learn practical independent 
living skills and to process their learning experiences. The 
long-term goals are for the teen to gain competence, personal 
accountability, integration into the community, and a strong 
confidence in themselves.
    In conclusion, to prepare foster adolescents to make their 
way in our society is a complex task. These are children who 
come into care with many different needs, many painful 
histories, and many different ideas of what they want from 
life. Independent living programs operate within the small but 
critical, stressful stage of late adolescence. To best serve 
these children, programs need to be individualized, based in 
reality, and to be therapeutic. In order to build such programs 
sufficient funds and services are desperately needed. This 
legislation is certainly a step in the right direction.
    Thank you.
    [The prepared statement follows:]

Statement of Kelli Sutton Block, People Places of Charlottesville, 
Charlottesville, Virginia

                              Introduction

    Jenny was gang-raped at twelve, never told anyone, and her 
mother kicked her out of the house because she was failing 
school and acting out sexually. She is now 19, and her case was 
closed a year ago. Lance was home-schooled by his father until 
he was eleven, and beaten when he didn't know the right answer, 
while his blind mother sat in the next room. He just turned 18, 
and is in an independent living program. John's mother has been 
in and out of jail for drugs his whole life, he has never met 
his father, and he saw his sister murdered in his home when he 
was ten years old. He is now 15, and will begin independent 
living services next year.
    My name is Kelli Sutton Block, and these are some of the 
children with whom I have met on a weekly basis. I work for 
People Places, which is one of the oldest therapeutic foster 
care programs in the nation. Today I will tell you what we, at 
People Places, see as the essentials to any successful 
independent living program, and I will tell you briefly about 
the program we have developed to meet these needs.
    The primary goal of an independent living program is to 
prepare adolescents in foster care to lead healthy, productive 
lives. In order to do this, we have identified three critical 
elements of successful independent living programs. These 
elements are that the programs must be individualized to the 
foster adolescent, they must be based in reality, and they must 
be therapeutic.

                             Individualized

    To be successful, an independent living program must be 
individualized. Adolescents in foster care span a vast range of 
skills and abilities. What works for one child will not 
necessarily work for another. Jenny, for example, with an I.Q. 
of 80 and a fear of open spaces will have very different needs 
from Lance, with an I.Q. of 120 and a history of aggression. 
These children need to be worked with individually. Each 
adolescent should have a customized independent living plan 
with specific treatment goals that emphasize that child's 
skills and account for his/her deficits.

                        Practical and Realistic

    If we are truly expecting to improve the lives of these 
adolescents, we must develop programs that are based in 
reality, and are not just built to ease our collective 
conscience. Three aspects of independent living programs 
require practical and realistic solutions.
    First, monthly stipends must be sufficient. Jenny, living 
on a stipend from the state, had $160. a month after paying her 
rent and utilities. That's $5.30 a day to pay for all of her 
food, transportation, and personal items. To create the 
expectation that a child should become independent, and to not 
give him/her enough money to do so, is to create disdain and 
distrust for the system and for the people who work within it.
    Second, independent living programs must support older 
adolescents as they learn to get and keep a job. As noted, 
children in foster care come from a variety of backgrounds. 
There are many children for whom post-secondary education is 
completely unrealistic. For these children, to simply hold a 
decent job for the rest of their lives would be an 
unprecedented victory in their families. We must support them 
as they learn to do this.
    Third, all independent living adolescents must have health 
care coverage. Learning to take responsibility for oneself is a 
critical part of becoming independent. We must give these 
children the means to do so. Two weeks ago, John broke his 
ankle. If he were not covered by Medicaid, these unexpected 
medical bills would have quickly put him into debt, adding to 
his already considerable stresses.

                              Therapeutic

    Independent living programs must address the social and 
psychological needs of adolescents in foster care, as well as 
their practical needs. As we all know, many foster children 
come from tragic childhoods of abuse and neglect. Teaching a 
child budgeting skills is a total waste of time if he cannot 
effectively express himself, cannot endure stressful 
situations, or cannot summon the courage to get out of bed in 
the morning.
    Jenny stopped by the other day, and intimated that she is 
finally ready to talk to someone about when she was raped seven 
years ago. Her case was closed last year, however, and she no 
longer receives Medicaid, or any health care services. She 
makes $6.00 an hour as a chambermaid in a hotel.
    If these children are ever expected to participate in 
society, they must have access to mental health services until 
they are at least 21. As young adults, not even old enough to 
drink alcohol, these children cannot be expected to pay for 
psychotherapy. Indeed, they won't be able to afford it, and 
society will pay the price, one way or the other.

                              One Example

    At People Places, we have developed an transitional 
independent living program called the Guide Program for foster 
adolescents who are not quite ready to live on their own. In 
the Guide Program, a teenager in foster care lives with a 
responsible, trained adult. This adult functions as a mentor, a 
sounding board, and a safety net for the teen. The 18 months 
they spend together is a way for the teen to learn, 
experientially, what it takes to live on one's own.
    In addition, each teen has a case manager who helps them 
set weekly goals in the domains of home, education/work, self, 
and community. Their weekly allowance is determined by their 
progress on these stated goals. Over time, the teens take on 
increased responsibility and meet with their case manager less 
frequently. The long-term goals are for the teen to gain 
competence, personal accountability, integration into the 
community, and a strong confidence in themselves.

                               Conclusion

    In conclusion, to prepare foster adolescents to make their 
way in our society is a complex task. These are children who 
come into care with many different needs, many painful 
histories, and many different ideas of what they want from 
life. Independent living programs operate within the small but 
critical, stressful stage of late adolescence. To best serve 
these children, programs should be individualized, based in 
reality, and therapeutic. In order to build such programs, 
sufficient funds and services are desperately needed. This 
legislation is a step in the right direction. Thank you.
      

                                <F-dash>

    Chairman Johnson of Connecticut. Thank you very much.
    Ms. Matheny.

  STATEMENT OF SONJA MATHENY, STUDENT, NORTH CAROLINA CENTRAL 
                   UNIVERSITY, KEYS FOR LIFE

    Ms. Matheny. Good morning. My name is Sonja Matheny. It is 
a great honor to speak on behalf of older foster youth. I am 19 
years old. I attend North Carolina Central University where I 
am a third-year business administration major. I have been a 
ward of the court since I was 2 years old--the DC court, 
District of Columbia. Being in foster care in the foster care 
system is difficult for most children. At a young age, we will 
know that we will come--the day will come when we will lose our 
financial and emotional support. We have to work twice as hard 
and quickly to be prepared to take care of ourselves at a young 
age.
    When we turn 18, most of us are terminated from the child 
care system. A few lucky ones, like me, receive support until 
they turn 21. In my case I have been luckier than many of my 
peers. At 16, I became part of the Keys for Life Independent 
Living Program located here in Washington, DC. This program has 
encouraged me to strive for success. While I was in high 
school, it offered me tutoring, life skills training, SAT 
preparation, college preparation, and internship opportunities.
    In preparation for college, the program sent me to local 
and out-of-state college tours; paid for some of my college 
application fees, and helped me find financial aid. Keys for 
Life was there to assist me with each step of the college 
enrollment process. I do not know if I could have done all the 
necessary things to prepare for college without them. It is 
difficult for a 17- or an 18-year-old to keep track of all the 
details and deadlines especially when your life may be chaotic. 
Many foster teens live in group homes that are noisy and have 
lots of people coming in and out. They have no private space to 
keep their important papers, and the adults in the home may not 
encourage them or support their goals.
    Keys would like to help guide me through the financial aid 
process, and they introduced me to the Orphan Foundation of 
America. The Orphan Foundation provides scholarships to young 
people in foster care. Their staff consists of volunteers, and 
their funding comes from the direct contributions of people 
concerned about young people in foster care.
    This year, I will receive $5,000 from the Orphan 
Foundation, but they cannot afford to help everyone who wants 
to go to college. I will be using the money to pay for my room 
and board. When a foster youth has goals, they need to be 
helped by many different groups of people like the Orphan 
Foundation. Unfortunately, my brother who is also on foster 
care has not benefited from the independent living program. It 
is important that people understand when the system lets kids 
down too many times, they will stop having faith in it. This 
happens too often. Kids just want out of the system, and they 
realize too late that the time they had with the independent 
living program could have helped them.
    Although my brother has worked hard pursuing his college 
degree, he has to pay for everything by himself. He was 
terminated from the system without any transition and had to 
move from the foster home before he had the opportunity to 
finish school. Overnight, became fully responsible for all of 
his expenses. He is now 24 years old and still striving to 
fulfill his dream of finishing college.
    I would like to recommend three improvements that need to 
be made within the independent living program. The first one, 
the program should be available for any foster teen who is 14 
or a freshman in high school. If students became part of the 
program in ninth grade, they will have--if they become part of 
the program in ninth grade, they will have a better chance of 
realizing that staying in school and getting good grades is the 
key to having the opportunities as an adult. I hear many people 
in the program say that they could have done much better in 
school had they started the independent living program sooner. 
From age 16 to 21 is not enough time to fully prepare someone 
for a successful life.
    Second, there should be a transitioning support plan for 
every foster youth before they age out. This transitional plan 
would help young adults put in place the stable living 
conditions necessary to finish college and training school or 
get a job.
    And, last, for the youth who are in college, independent 
living money should be available to pay for room and board. 
Living on campus provides students with a stable environment so 
the students can focus more on their studies. Thank you.
    [The prepared statement follows:]

Statement of Sonja Matheny, Student, North Carolina Central University, 
Keys for Life

    Good Morning, my name is Sonja Matheny and it is a great 
honor to speak on behalf of older foster youth. I am nineteen 
years old and I attend North Carolina Central University, where 
I am a third year Business Administration major. I have been a 
ward of the District of Columbia since I was two years old.
    Being in the foster care system is difficult for most 
children. At a young age, we know the day will come when we 
lose all of our financial and emotional support. We have to 
work twice as hard and quickly to be prepared to take care of 
ourselves at a very young age. When we turn eighteen most of us 
are terminated from the foster care system; a few lucky ones 
like me receive some support until they turn twenty-one.
    Most of us are terminated before we are ready. Throughout 
our years in care, there has been inadequate support from 
foster families, group homes, social workers, and people around 
us do not understand how hard it is not having a family and 
home of your own. Many of my peers lose confidence in the 
system and do not believe that programs like independent living 
can help them get ready to be on their own. Growing up is a 
daily process and short term programs like Independent Living 
can't make up for the years of not having any guidance towards 
adulthood.
    In my case, I have been luckier than many of my peers. At 
sixteen I became part of the Keys for Life Independent Living 
Program located here in Washington D.C. This program has 
encouraged me to strive for success. While I was in high 
school, it offered me tutoring, life skills training, S.A.T 
preparation, college preparation, and internship opportunities. 
In preparation for college, the program sent me on local and 
out-of-state college tours, paid for some of my college 
application fees, and helped me find financial aid.
    Keys for Life was there to assist me with each step of the 
college enrollment process. I do not know if I could have done 
all the things necessary to go to college without them. It is 
difficult for a 17 or 18 year old to keep track of all the 
details and deadlines, especially when your life might chaotic. 
Many foster teens live in group homes that are noisy and have 
lots of people coming and going, they have no private space to 
keep important papers and the adults in the home may not 
encourage or support their goals.
    Keys for Life helped guide me through the federal financial 
aid process and they introduced me to the Orphan Foundation of 
America. The Orphan Foundation provides scholarships to young 
people in foster-care. Their staff consists of volunteers and 
their funding comes from the direct contributions of people 
concerned about young people in foster care. This year I will 
receive a $5,000 from the Orphan Foundation but they can not 
afford to help everyone who wants to go to college. I will be 
using their money to pay for room and board. When a foster 
youth has goals they need to be helped by many different groups 
of people like the Orphan Foundation.
    Unfortunately, my brother who was also in foster care has 
not benefited from an Independent Living Program. It is 
important people understand that when the system lets kids down 
too many times they stop having faith in it. This happen often, 
kids just want out of the system and some realize too late that 
they do need the help of a independent living program. But 
unlike my friends at college who have families that take them 
back--foster kids can=t return.
    Although my brother has worked hard pursing his college 
degree, he has to pay for everything himself. He was terminated 
from the system without any transition plan and had to move 
from the foster home before he had the opportunity to finish 
school. Overnight he became fully responsible for all of his 
expenses. He is now twenty-four years old and still trying to 
fulfill his dream of finishing college.
    Although Independent Living Programs definitely provide 
many benefits, I would like to recommend five improvements that 
need to be made.
    1) The programs should be available to any foster teen who 
is 14 or a freshman in high school. If students become part of 
the program in ninth grade, they will have a better chance of 
realizing that staying in school and getting good grades is the 
key to having options as an adult. I hear a lot of people in 
the program say they could have done much better in school if 
they had started the independent living program sooner. From 
age sixteen to twenty-one, is not enough time to fully prepare 
someone for a successful life.
    2) There should be a transitional support plan for every 
foster youth before they age out. This transitional plan would 
help young adults put in place the stable living conditions 
necessary to finish college or training school or get a job.
    3) For the foster youth who are in college, independent 
living money should be available to pay room and board at 
school. Living on campus provides students with a stable 
environment so the student can focus more on their studies.
    4) All foster youth should have health care coverage until 
they complete school or job training. Part of the transitional 
plan should include being able to join a health insurance plan 
when Medicaid expires.
    5) Lastly, more civic organizations and businesses should 
be encouraged to become involved with foster youth. All 
children should have relationships with people outside of the 
foster care system that help them feel like they belong to 
society.
    In conclusion, I want to thank you for increasing the 
funding for independent living programs to $140,000,000 and ask 
you to make sure that states spend the money in ways that will 
truly help more foster youth gain independence and live 
prosperous lives.
    Thank you.
      

                                <F-dash>

    Chairman Johnson of Connecticut. Excellent. Thank you very 
much.
    Mr. Bowie.

  STATEMENT OF MONTREY BOWIE, HIGH SCHOOL STUDENT, OUR HOUSE, 
                 INC., ELLICOTT CITY, MARYLAND

    Mr. Bowie. Hi. My name is Montrey Bowie, and I am 17 years 
old. I was born in Frederick, Maryland. I completed the ninth 
grade when I was in school. I had a tough time when I was 
young. I had grown-ups who did not care about me, did not spend 
much time with me. I began to get in trouble when I was 9 years 
old and still growing up so my life could not take care of me. 
When I was 13, the State pulled me out of my home, and I went 
from group home to group home 4 times total until I was 15 
years old. I did not learn anything about how to live or how to 
take care of myself. Then the State put me in a foster home 
with six other foster kids. The seven of us had to share two 
bedrooms, and the lady was not kind to me. Again, I was very 
much alone and had no growing up support.
    Finally, after a year in this home, I ran away. I survived 
by getting into trouble, but soon I was caught and placed in 
another foster home, and this home also did not address my 
needs. I took a job at McDonald's, but I realized that I was 
not going to have much of a future there. I wanted to be a 
carpenter and own my own construction business. I heard about 
Our House Youth Home, and I went for an interview. It is 
located between Washington and Baltimore. I got accepted there 
a year ago, and I am still currently enrolled there.
    At Our House, we do three things. We learn carpentry during 
the day; we have our high school classes at night, and we do 
community service work every Saturday. We won the top county 
award in 1997 and the top State award in 1998 for all of the 
hours of volunteer work that we do to help other people. I will 
be taking the high school diploma next month. I will be 
graduating from Our House this summer.
    I will turn 18 at the end of the summer. I do not have a 
home to go to, and I will be on my own soon. I have to find a 
place to live and start paying a security deposit to even have 
a phone installed. This is very scary for me. For the first 
time in my life, I will be completely on my own.
    I will have a job with a carpentry union in Frederick, 
Maryland, because Our House Youth Home taught me carpentry and 
guaranteed all of its graduates a job in construction field, 
but I must have transportation to belong to a union, because 
there are carpenter's jobs all over the different construction 
sites. I might get a car that has been donated to Our House, 
but auto insurance costs a lot of money, and insurance 
companies won't donate even 1 month's premium.
    Despite the uncertainty of my whole life in front of me, I 
still feel lucky. At Our House, I have gained self-respect, a 
work ethic, and a carpentry trade, and a high school degree. I 
have social workers to give me weekly counseling sessions and 
to talk with me if I ever need someone to listen to me.
    They have been preparing me for adult life. I have weekly 
life skills training, group counseling, CPR certification, and 
even a 2-month public speaking course. I have had volunteer GED 
students who have taught me how to study. I feel Our House has 
given me a lot of tools that will help me, but they need help. 
They need an after-care program. They need a place for guys 
like me who are just 18. You see, at 18, most kids have to 
leave their programs, because 18-year-olds are considered 
adults. I am still going to need an adult to talk with me who 
cares about me. I am still going to need a grown-up who I can 
trust to help me make decisions. I might even need some 
counseling before I go out completely on my own.
    However, many of my friends from foster care have only a 
high school degree and no job skills. They will have to work at 
minimum wage, but when we are on our own, we all will have to 
purchase sheets, towels, dishes and pans, food, and clothes as 
well as worrying about our transportation to and from our job. 
I don't understand why there can't be more Our House homes to 
help them get ready.
    I have five following recommendations: first, kids who have 
no parents to help them or to give them guidance need a 
jumpstart on life to make them successful and taxpaying 
citizens; second, we need mentors who we can call on when 
things get us down; third, we need help in putting a security 
deposit on our first month apartment, on our phone, our auto 
insurance, our first month's rent, our linen, cookware, our 
furniture, and transportation; fourth, we need more youth homes 
like Our House--every kid needs this kind of training; fifth, 
we need Congress to look over the State spending of funds for 
us, because I don't believe the State of Maryland did such a 
good job with me. They never seem to have enough money to take 
care of us properly.
    And the last I want to say is I am going to be a good 
citizen, and I am going to give back to this country. Thank 
you.
    [The prepared statement follows:]

Statement of Montrey Bowie, High School Student, Our House, Inc., 
Ellicott City, Maryland

    My name is Montrey Bowie, and I'm 17 years old. I was born 
in Frederick, MD. I completed the 9th grade when I was in 
school.
    I had a tough time when I was young. I had adults who did 
not care about me, who did not spend much time with me. I began 
to get in trouble when I was 9 years old, and still the adults 
in my life could not take care of me.
    When I was 13, the state pulled me out of my home, and I 
bounced from group home to group home--4 in all until I was 15. 
I did not learn anything about how to live, or how to take care 
of myself.
    Then the state put me in a foster home with 6 other foster 
kids. The 7 of us had to share two bedrooms, and the lady was 
not kind to me. Again, I was very much alone and had no adult 
support. Finally, after a year in this home, I ran away.
    And I survived by getting in trouble. But soon I was 
caught, placed in another foster home, and this home also did 
not address my needs. I took a job at McDonalds, but I realized 
that I was not going to have much of a future there. I wanted 
to be a carpenter, and own my own construction business.
    I heard about Our House Youth Home, and I went for an 
interview. It is located between Washington & Baltimore. I got 
accepted there about a year ago, and I am still currently 
enrolled there. At Our House, we do 3 things: we learn 
carpentry during the day, have our high school classes at 
night, and do community service work every Saturday. We won the 
top county award in '97 & the top state award in '98 for all 
the hours of volunteering that we do to help other people.
    I will be taking the high school diploma exam next month, 
and I will be graduating from Our House this summer. I will 
turn 18 at the end of the summer.
    I do not have a home to go to, and I will be on my own. I 
have to find a place to live, and start paying security 
deposits to even have a phone installed. This is very scary for 
me. For the 1st time in my life, I will be completely on my 
own.
    I will have a job with the carpenter's union in Frederick, 
MD, because Our House Youth Home taught me carpentry, and 
guarantees all its graduates a job in the construction field.
    But I must have transportation to belong to the union, 
because its carpenters drive all over to different construction 
sites. I might get a car that's been donated to Our House, but 
auto insurance costs a lot of money, and insurance companies 
won't donate even one months's premium.
    Despite the uncertainty of my whole life in front of me, I 
still feel lucky. At Our House, I have gained self-respect, a 
work ethic, a carpentry trade, & a high school degree. I had 
social workers to give me weekly counseling sessions, and to 
talk with me if I ever needed someone to listen to.
    They have been preparing me for adult life. I have weekly 
life skills training, group counseling, CPR certification, and 
even a two month public speaking course: Toastmasters. I have 
had volunteer GED tutors who have taught me how to study. I 
feel Our House is giving me a lot of tools that will help me.
    But they need help: they need an aftercare program. They 
need a place for guys like me who are just 18. You see, at 18, 
most kids have to leave their programs because 18 year olds are 
considered adults. I am still going to need an adult to talk to 
who cares about me. I am still going to need an adult who I can 
trust to help me make decisions. I might even need some 
counseling, before I go out completely on my own.
    However, many of my friends from foster care have only a 
high school degree, and no job skills. They will have to work 
at minimum wage. But when we are on our own, we all will have 
to purchase sheets, towels, dishes & pans, food, and clothes, 
as well as worrying about our transportation to and from our 
jobs. I don't understand why there can't be more Our House 
Youth Homes to help them get ready.
    I have the following 5 recommendations:
    1st--Kids who have no parents to help them or to give them 
guidance, need a jump start on life to make them successful & 
tax paying citizens.
    2nd--We need mentors who we can call on when things get us 
down.
    3rd--We need help in putting a security deposit on our 1st 
apartment, on our phone, our auto insurance, our 1st month's 
rent, our linens & cookware, our furniture, and transportation.
    4th--We need more youth homes like Our House. Every kid 
needs this kind of training.
    5th--We need congress to look over the state's spending of 
funds for us, because I don't believe the state of Maryland did 
such a good job with me. They never seemed to have enough money 
to take care of us properly.
    And the last thing I want to say is, I am going to be a 
good citizen, and I am going to give back.
      

                                <F-dash>

    Chairman Johnson of Connecticut. I thank the panel for 
their testimony, and I particularly congratulate the two of you 
on the extraordinary intelligence of your testimony and the 
professionalism with which you delivered it.
    It is really a testament that you have been able to use the 
resources that did come to you, though late on, with such very 
good effect, and it is very encouraging to hear that clearly 
your friends in those programs also have been able to benefit.
    But you are absolutely right, it is really scandalous that 
we should be telling children--one of the earlier people--
maybe, perhaps, it was you, Ms. McCaffrey, who testified about 
the fear--or Tom DeLay--and we do hope to make very significant 
change in this program.
    It is frustrating, because we hear all the people testify 
and say what good programs, and so you want to say, ``Listen, 
State, you are going to have to do this program.'' But every 
child is different, and every community is different, and so 
communities do have to tailor and develop their programs. We 
can do a much better job of sharing successful programs 
throughout the States. We don't do a good job of that. In many 
ways, the whole foster care system has been a sort of little 
secret off to the side that we don't talk about, and the more--
you may have heard the earlier panels talk about how once you 
have the data everybody says ``Wow.''
    We had testimony about 2 weeks ago on the Adoption and Safe 
Families Act, and person after person said, ``Once we had to 
focus on this issue, we did a much better job.'' So, we are 
hoping through this legislation to get States to focus; to give 
them more resources; to have them look at what actually happens 
as a result of the efforts they make. I mean, look at all the 
money that was, frankly, wasted on you when you were young, 
because it was not helping you do the right thing, but it was 
costly. So, as we get each piece moving along a little better, 
we hope to figure out how to get the whole system to be, 
frankly, more child-centered but also more realistic and more 
practical.
    One of the things that--as you write this legislation, you 
want to say, ``These kids should be number one on the work 
study programs in the high schools.'' Well, you can't 
necessarily mandate that, but we certainly will in the report 
language try to cite that kind of issue. First of all, if you 
do that here, it gets referred to another Committee, and you 
might never get it back. So, you do have to be careful telling 
people how you think they can do it best, because you are the 
results of really caring people thinking about how can we do 
this best, and, clearly, there is a way to do this best.
    So, we hope that we will put some money out there and 
create a different framework within which people cannot only 
think about these things and can use the money more flexibly 
but will be held more accountable, and it will be more visible 
of what did happen and why did it happen? The testimony that we 
had both at our initial hearing and along the way as to the 
lack of any support for kids in getting education--both of you 
got education. Montrey, you got a trade that pays well, and 
you, Sonja, are in college, and those things open up 
opportunity, and so much of the money that we spend in the 
system doesn't open up opportunity.
    So, we do hope that we will make big change, and I thank 
you for your very specific recommendations. I appreciate that. 
I appreciate the thoughtfulness and straightforwardness of your 
testimony. I very much appreciate the fact that you have been 
able to put aside feeling sorry for yourselves and ``how come I 
haven't got a better break in life?'' and make the breaks for 
yourself now; I admire that.
    Thank you all for your testimony. The hearing is adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

                              Kathi L. Grasso, Esq.        
                                      Baltimore, Maryland 21218    
                                                       May 26, 1999

The Honorable Nancy L. Johnson, Chair
    & Subcommittee Members
Subcommittee on Human Resources
Committee on Ways and Means
U.S. House of Representatives
Rayburn House Office Building, Room B-317
Washington, DC 20515-6216

RE: Statement of Kathi L. Grasso, Esq., on H.R. 1802

    Dear Chairwoman Johnson and Subcommittee Members:

    I am submitting these comments on the ``Foster Care Independence 
Act of 1999,'' H.R. 1802, as a private citizen, not on behalf of my 
current employer. Having been court-appointed counsel for hundreds of 
youth in child abuse cases while employed at Maryland's Legal Aid 
Bureau and the Maryland Disability Law Center, I was moved to write 
because many of my former clients would have greatly benefited from the 
provision of services envisioned by H.R. 1802. As you are aware, too 
many adults who have been in foster care as children experience 
homelessness, imprisonment, violence, poor health outcomes, and the 
devastating effects of poverty.
    I commend the Chairwoman's sponsorship of this bill that has the 
potential to enhance opportunities for foster care youth to participate 
in much needed independent living programs, as well as facilitate their 
access to appropriate health care. I support increased funding for 
these services and Medicaid expansion, but wish to address issues, 
including the juvenile court's role in monitoring the provision of 
services, that if addressed could further enable youth transitioning 
from foster care to receive meaningful independent living services.
    From my work as an attorney for youth and now with the American Bar 
Association Center on Children and the Law, I have come to learn that 
too many teens in foster care, especially those with developmental and 
mental disabilities, are denied access to services necessary to enable 
them to make the transition to young adulthood and self-sufficiency. 
Reasons include:
    <bullet> Limits on the jurisdiction of some state courts to preside 
over cases of youth over eighteen years of age;
    <bullet> Lack of or inadequate independent living programs and 
services;
    <bullet> Limited financial resources for these programs;
    <bullet> Some states not opting to pay for foster care and/or 
independent living programs/services for youth older than 18;
    <bullet> Rigid standards for admittance into existing programs;
    <bullet> Variance in case worker competence (e.g., some may be 
ignorant of adolescent development and needs; lack rapport or ability 
to communicate with teens); and
    <bullet> Lack of uniformity in how programs are administered or 
operated.

  The Court's Role in Monitoring the Provision of Independent Living 
                                Services

    In accordance with federal law, this nation's juvenile and 
family courts play an instrumental role in monitoring the 
provision of permanency planning services to abused and 
neglected children, including independent living services. I 
know from personal experience that many of my older clients 
aged eighteen to twenty-one would have been denied transitional 
living services if the court had not maintained jurisdiction 
over their cases after their eighteenth birthdays, and if they 
had not had access to their own legal counsel to advocate for 
services.
    In some states, such as Maryland, courts have the authority 
to review cases of youth in foster care until the person turns 
twenty-one years of age and can ensure that these young people 
are not inappropriately denied foster care and transitional 
living services. In other states, court jurisdiction is 
terminated once the youth turns age eighteen and as such, there 
may be no independent judicial oversight.
    For example, in L.Y. and Melody v. Department of Health and 
Rehabilitation Services, 696 So.2d 430 (Fla. App. 1997), Judge 
Pariente, in a concurring special opinion, voiced frustration 
with Florida's statute terminating court jurisdiction over 
children in foster care at age eighteen stating that juvenile 
court jurisdiction should be co-extensive with the obligation 
of the Department to provide services to individuals who have 
been previously placed in foster care. Id., at 432. He 
acknowledged the trial judge's concern that there will be no 
effective oversight to ensure that the Department provides the 
services that it is obligated to provide. Id., at 433. 
Concerned about diminished funding for children's services, he 
adds:

          
    With these budgetary cuts in mind, are the children over eighteen, 
regardless of how well they may or may not be doing, the next targets? 
This Court fears that they are, and that a large number of children are 
going to be cut loose with no resources other than to resort to public 
assistance, crime, prostitution, and other degrading acts in order to 
survive. Did the people who may be cutting them loose adequately 
fulfill their responsibility to prepare these people for independence?
    Id., at 434. The court goes on to encourage ``HRS in Tallahassee, 
the Guardian [Ad Litem] program and all responsible child advocates 
[to] band together to advocate amending the law in order to allow some 
independent oversight of the manner in which there is review for 
children who choose to remain in extended foster care beyond their 
eighteenth birthdays.'' Id., at 435.
    To ensure that courts are involved in the implementation of the 
proposed legislation, I recommend that the bill incorporate additional 
provisions under Section 477(b)(2) and (b)(3), respectively, to require 
that states in their state plans and certification process detail how 
they will coordinate with their courts to promote judicial involvement 
in supporting youth who are transitioning from the child welfare system 
through their twenty-first birthdays. This coordination could include 
educating judges and lawyers on transitional living issues and 
encouraging states, when necessary, to extend their courts' child 
welfare jurisdiction to allow juvenile judges to preside over the cases 
of dependent youth eighteen to twenty-one years of age.

Ensuring That All Dependent Youth 18-21 Have Access to Foster Care and 
                      Independent Living Services

    In addition to the court's role in monitoring services, I 
am concerned that the proposed legislation may have the 
unintentional effect of pushing youth upon their eighteenth 
birthdays out of stable foster care placements. The bill's 
purpose section, as well as other language, appears to indicate 
that the bill is only addressing the needs of youth who are 
former foster care recipients. Some examples include the 
following:
    <bullet> Sec. 477 (a)(1), ``to identify children who are 
likely to remain in foster care until 18 years of age....'';
    <bullet> Sec. 477 (a)(2), (a)(3), ``to help children who 
are likely to remain in foster care until 18 years of 
age....'';
    <bullet> Sec. 477 (a)(5), ``to provide...services to former 
foster care recipients....'';
    <bullet> Sec. 477 (b)(3)(A), ``that the State will provide 
assistance and services to children who have left foster 
care....''; and
    <bullet> Sec. 477 (b)(4)(C), ``all children in the State 
who have left foster care....''
    Would this legislation allow independent living funds to be 
appropriated for transitional living services to youth who 
still reside in foster care placements after age eighteen and 
until age twenty-one? Many youth will benefit from the 
stability of being in a family foster home after age eighteen 
and at the same time will be in need of services to enable them 
to transition to self-sufficient adulthood. For instance, what 
about the nineteen or twenty year old youth who lives with a 
foster family and attends a local college? If states wanted to 
take advantage of increased independent living funding, would 
some youth be unnecessarily removed from their stable foster 
home environments and forced to live on their own?
    We should work to ensure that youth in foster care are 
afforded the same opportunities for family life as non-foster 
care youth. I would therefore recommend that the bill be 
amended to extend foster care maintenance payments to dependent 
youth up to age twenty-one and ensure that youth, aged eighteen 
to twenty-one, in foster care can also be recipients of 
independent or transitional living services.

  Ensuring That All Dependent Youth 18-21 Have Access to Appropriate 
                              Health Care

    Studies indicate that a significant number of children and 
youth coming under the auspices of juvenile, dependency and 
family courts have disabling, chronic, and life threatening 
conditions that are not always identified and treated.\1\ 
Expanding Medicaid coverage to youth transitioning from foster 
care aged eighteen through twenty-one is essential if we are to 
increase the chances of this at-risk population of youth being 
physically and mentally healthy as adults.
---------------------------------------------------------------------------
    \1\ United States General Accounting Office, Report to the Ranking 
Minority Member, Subcommittee on Human Resources, Committee on Ways and 
Means, House of Representatives, Foster Care: Health Needs of Many 
Young Children Are Unknown and Unmet, GAO/HEHS-95-114 (May 1995); 
Chernoff, R, Combs-Orme, T, Risley-Curtiss, C, Heisler, A, Assessing 
the health status of children entering foster care, Pediatrics, 93(4): 
594-601 (April 1994); Horwitz, SM, Simms, MD, Farrington, R, Impact of 
developmental problems on young children's exits from foster care, 
Developmental and Behavioral Pediatrics, 15(2):105-110 (April 1994); 
Halfon, N, Berkowitz, G, Klee, L, Mental health service utilization by 
children in foster care in California, Pediatrics, 89(6): 1238-1244 
(June 1992); and McIntyre, A, Keesler, T, Psychological disorders among 
foster children, Journal of Clinical Child Psychology, 15(4), 297-303 
(1986).
---------------------------------------------------------------------------
    I appreciate the opportunity to comment. Thank you for your 
consideration.

            Sincerely,
                                      Kathi L. Grasso, Esq.
      

                                <F-dash>


Statement of National Independent Living Association, Jacksonville, 
Florida

    The National Independent Living Association(NILA) submits 
this document as testimony to the distinguished members of the 
House Ways and Means' Subcommittee on Human Resources. The 
National Independent Living Association is an association 
connected to hundreds of public and private agencies, state 
agencies, foster care parents, individuals and foster care 
youth who represent 50 states across the nation. These member 
agencies and individuals represent foster care youth and 
services, youth at risk and young people in out of home 
placements in need of extending, quality care in order to make 
the transition from care to independence successful. Many of 
our members are state coordinators, provide specialized 
services and focus their programs specifically on independent 
living services and transitional living skills. On behalf of 
our members and on behalf of over 500,000 young people in care, 
we thank you for the opportunity to submit our recommendations 
and comments for your review.
    In 1989, the founders of NILA were instrumental in shaping 
the legislation for foster care youth. They made positive 
change in policy and began a movement across the nation that 
connected foster care services, providers, and youth together. 
Over the years, the networking and advocacy that has taken 
place for young people in out of home care has sparked concerns 
for the constant changes and problems young people face, in 
society and programming. These issues have become NILA's focus 
as many of the young people leaving care become homeless, 
incarcerated, pregnant and in greater need of mental health and 
medical services. As Bill Pinto, Program Director for 
Connecticut's Department of Human Services, stated in his March 
9th testimony to the Subcommittee on Health and Human 
Resources, ``To me, the story of Independent Living in the 
United States is one of 'tragedy and triumph'. The tragedy is 
that, far too often, graduates of the American child welfare 
system become America's homeless, prisoners, public assistant 
recipients and psychiatric patients.''
    NILA feels very strongly about it's commitment and 
responsibility to the older youth in America who are in 
alternative care. Entering into adulthood can take many forms, 
and particular experiences or events may be viewed as turning 
points for individuals during which new directions are taken. 
Research has shown that positive youth development is fostered 
when adolescents have a sense of industry and competency, a 
feeling of being connected to others and to society, a belief 
that they have control over their lives and a stable identity. 
Many of the children placed in out of home placements are 
victims of abuse, abandonment, parents with addictions and many 
other hardships. These youth require security and support that 
will aide them in their growth as young adults to feel 
connected, in control and with a sense of identity. We have a 
responsibility to do more for the young people aging out of the 
system than we have been. The challenges young people face at 
age 18 are tremendous and it may be that the absence of support 
from families, societal institutions, communities and friends, 
rather than any given problem behavior, explains the failure or 
inabilities of some adolescents to achieve successful 
adulthood. We must support their desire to complete their 
education, find gainful employment, and their will to become 
independent, healthy members of society. It is critical that we 
begin recognizing the transition from childhood to adolescence 
to self-sufficiency or adulthood, is a process, not an event.
    The bipartisan bill being introduced will play an important 
role in promoting the successes of young people in out of home 
placements transitioning to independent living. Unfortunately 
there is no single ``cure all'' solution, but NILA supports all 
efforts made for better policy and programming for these youth. 
In 1997, Congress passed the bipartisan Adoption and Safe 
Families Act which ensures that more young people in foster 
care will have safe and permanent living arrangements. While 
this was monumental for many children and youth, adoption is 
not possible for every child in alternative placements. The 
``Transition to Adulthood Program Act of 1999,'' being 
introduced by U.S Representative Ben Cardin (D-MD) and U.S. 
Representative Nancy Johnson (R-CT) addresses many of the 
issues for Independent Living Services programs and the young 
people they serve. NILA is pleased that Congress and the 
Clinton Administration are addressing the needs of our young 
people. In fact, a study contracted by the U.S. Department of 
Health and Human Services concluded that emancipated youth are 
a troubled population.\1\
---------------------------------------------------------------------------
    \1\ Alliance For Children & Families, Into the Newsroom, public 
relations staff, February 28-March 2, 1999. Study contracted by the U.S 
Department of Health and Human Services.
---------------------------------------------------------------------------
    <bullet> Two thirds of the 18 year olds in the study did 
not complete high school or a GED
    <bullet> Sixty-one percent had no job experience.
    <bullet> Thirty-eight percent had been diagnosed as 
emotionally disturbed
    <bullet> Seventeen percent had a drug abuse problem
    <bullet> Nine percent had a health problem.
    <bullet> Seventeen percent of the females were pregnant
    <bullet> Of the total 34, 600 youths emancipated from 
foster care during the study period, 40 percent received no 
independent living services to help them prepare for 
responsible adult life.
    <bullet> For those who had received services, the study 
found that many of the skills encouraged by the Independent 
Living Programs were positively related to good outcomes once 
the adolescents left foster care.
    A good example of this is the story about a young man in 
foster care who just reached his 18th birthday. He is forced to 
leave his current placement and is exited out on his own. For 
much of his life he has become significantly familiar with the 
word ``survival.'' He has survived a childhood of abuse, 
neglect and domestic violence, multiple placements in foster 
homes, group homes and alternative care. He knows how to 
survive street life, sleepless nights under bridges, in cars 
and at various friends homes and lonely holidays without 
family. But he doesn't know how to fill out a job application 
or how to interview for a job, let alone maintain one. He 
doesn't know how important completing his education will be to 
his future or how to find permanent, safe housing. He is 
arrested for stealing food, and while jail isn't ideal, it is 
three square meals, a bed to sleep on and a roof over his head. 
Meanwhile, the young lady he got pregnant is having the baby. 
She is familiar with the welfare system and knows how to 
survive on it and manipulate it. But she doesn't know how 
important pre-natal care is nor does she have strong parenting 
skills because she has never known a positive parent role 
model. As dramatic as this sounds, these two young people 
represent a large number of youth being emancipated from care 
every year. NILA believes the issues that youth in out-of-home 
placements are faced with are among the most integral, 
important issues facing Congress. If the well being of our 
children is a priority, then we must act with vigor.
    NILA's Board of Directors, members and its legislative 
committee have reviewed the highlights of the bipartisan bill 
being introduced and have outlined additional recommendations 
and other improvements that we believe will better address the 
needs of young people making the transition to adulthood.
    <bullet> An increase in the Independent Living budget from 
$70 million to $140 million.
    Current allocations to states remains based on the 1984 
census and overall dollars have not been increased since 1992. 
A substantial increase is pertinent to the delivery of services 
to youth who are suppose to receive them.
    <bullet> National policy for states flexible funding that 
provides measurable outcomes for design and implementation of 
programming specific to older youth in out-of-home care.
    While there are many responsible programs that are 
providing quality, extended care to youth aging out of the 
system, there are many, unfortunately, that continuously fail 
our older adolescents. Policy that promotes accountability and 
outcome measures will also promote proper and safer exits from 
care for youth.
    <bullet> Reallocation of funds based on the average of the 
last two years' foster care census (both IV-E and non IV-E 
eligible).
    This number should be re-calculated regularly to allow for 
the shifts in the population. The distribution formula for the 
Independent Living IV-E initiative funds has not been updated 
since 1984. For many states the current formula does not meet 
their needs for the increased number of youth they are serving.
    <bullet> Employment tax credit for hiring current or former 
foster care youth.
    Less than half of the youth emancipated from care without 
support or aftercare, are unemployed. Only 38% maintain a job 
for over a year. Incentive to employers to work with and train 
these youth could prove to be very affordable. When adolescents 
perceive their futures in terms of work that will allow them to 
have positive work experiences and become economically self-
sufficient, they are more likely to feel a sense of 
responsibility and capability to manage their future.
    <bullet> An increase in allowable savings for youth up to 
$5,000.
    NILA strongly recommends that young people graduating from 
foster care not be penalized by becoming ineligible for Title 
XX or other social services for maintaining a personal savings 
plan.
    <bullet> Lowering the age for IV-E eligibility to 14 years.
    The younger an adolescent begins to get involved in skills 
training, self-preparation and specialized programming, the 
more likely the results will be positive. Studies have shown 
that if in early adolescents (ages 11-14) and through mid-
adolescence (ages 15-17) characteristics of competency, 
connectedness, self control and identity are nurtured, it is 
more likely that these youth will engage in pro-social 
behaviors, exhibit positive school performances and be members 
of nondeviant peer groups.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Understanding Youth Development: Promoting 
Positive Pathways of Growth; January 1997.
---------------------------------------------------------------------------
    <bullet> No more than 40% of allocations to be spent on 
room and board and at least 60% of the funds to be spent on 
training and services to prepare youth for self-sufficiency.
    Allocations for room and board are very important to 
assisting programs in transitioning youth to self-sufficiency 
and long term independent living. It is apparently evident that 
skills training and support services and after care are the 
back bone to the success of ``long-term.'' Therefore a greater 
percentage of the funding needs to go to training and 
programming that promotes preparedness.
    <bullet> NILA supports the Data Reporting Requirements 
proposed in the bipartisan bill being introduced.
    NILA recommends additions to the data requirements be; the 
number of youth who are in college, post secondary education 
and other trade/training educational institutes.
    <bullet> A stronger emphasis on educational assistance and 
preparation for employment.
    The Westat study, conducted in 1989-1990, showed that youth 
who received continued services and support to attend 
continuing educational programs, were more likely to obtain 
employment that provided a comfortable wage for living. They 
were also more likely to abstain from re-entering the system as 
criminals, welfare recipients or homeless members of society.
    <bullet> Requirements that states will provide some 
assistance to youth, who are not otherwise covered by medical 
insurance, to obtain and pay for their medical services until 
age 21.
    There are 20,000 youth who age out of foster care every 
year. Not one of them should be without health coverage of some 
type. The security of these youths medical and mental health is 
critical to the success of their futures.
    <bullet> Allow youth in out of home placement to remain in 
care until age 21 if they are completing their education and 
preparing for their transition to adulthood.
    Many youth are forced to leave care upon reaching the age 
of 18. Many have not completed their education by this time and 
are forced to drop-out for various reasons. Continued emotional 
and tangible support for these young people, coupled with 
programs designed to promote education and life skills 
training, will most likely encourage youth to reach for higher 
education accomplishments.
    <bullet> Continuation of services to youth who have left 
care, such as housing and financial assistance, up until age 
21.
    Between the ages of 18-21 the process of transitioning from 
adolescence to adulthood needs continued services. Transitional 
housing is essential to those youth who require some structure 
and supervision. Supervised group homes and apartments, 
subsidized housing and community based training should all be 
part of the process for continuum of care to youth.
    <bullet> Allow youth to re-enter foster care after age 18.
    Often times youth who have been part of multiple 
placements, traumatic, abusive histories and no family network 
or support, have a great desire to venture out of care and try 
``freedom'' on their own. Statistics show that many of these 
young people often flounder and falter at their first attempt 
to independence. However, trial and error can be a clever 
teacher. Many youth realize ``freedom'' is more than just 
'being on your own' without adult supervision. It is knowlege 
and a good sense of direction. Many wnt and need to return to a 
sense of connectedness and security while they maneuver 
themselves comfortably into self-sufficiency. States should be 
given incentives to allow youth who leave voluntarily at age 
18, to re-enter voluntarily at any time prior to age 21.
    <bullet> Provide one year of after care services up to age 
21.
    After care has proven itself to be a significant factor in 
a young person's ability to adjust to the transition into 
independent living. Many programs across the nation already 
have built-in after care programs. These programs should be the 
models that other after care programs are designed after. They 
are strong examples of how essential it is to the success of 
these youth exhibiting responsible actions
    and lifestyles.
    4Research and evaluation to determine best practices in 
preparing youth for adult life.
    In order for the transition from childhood to adolescence 
to adulthood to progress efficiently, it is crtical that we 
evaluate effective programming, successful training approaches, 
and the emotional and physical well-being of these youth. It is 
just as important the we continue to research the trends and 
effects of societal change and assess the challenges in their 
home environments to begin implementing preventative 
programming as well.
    NILA strongly implores the honorable members of the 
Subcommittee for Health and Human Services to act right now on 
behalf of all the young people in alternative care by passing a 
bill that will enhance the quality of care, build a strong 
sense of community and continue the development of good 
programming. The challenges our young people face are getting 
bigger and tougher everyday. The opportunity to create policy 
that is in their best interests and will contribute to their 
transition into adulthood, is now. In closing, John F. Kennedy 
said it best;

          ``All this will not be finished in the first one hundred 
        days. Nor will it be finished in the first one thousand days, 
        nor in the life of this Administration, nor even perhaps in our 
        lifetime on this planet... But let us begin.''
      

                                <F-dash>


NILA Designated Representatives Sheet

NILA Management Staff

James D. Clark, Executive Director
NILA Headquarters
4203 Southpoint Blvd,
Jacksonville, FL 32216
904-296-1055 ext 1025

Robert E. Arnold, Assistant Executive Director
NILA Headquarters
4203 Southpoint Blvd,
Jacksonville, FL 32216
904-296-1055 ext 1018

Shelly R. Davalos, NILA Coordinator
NILA Headquarters
4203 Southpoint Blvd,
Jacksonville, FL 32216
904-296-1038, fax 904-296-1953

NILA Board of Directors Executive Committee:

Cathy Welsh, Chair
South Bronx Human Development org
One Fordham Plaza, Suite 900
Bronx, NY 10458

Kathi Crowe (Vice Chair)
Rhode Island Department of Children & Families
610 Mt. Pleasant Ave, Bldg 2
Providence, RI 02908

Lee White, Treasurer
Northwest Media
326 West 12th Ave.,
Eugene, OR 97401
541-343-6636 fax 541-343-0177

Diann Stevens, Secretary
Ohio Department of Social Services
1951 Gantz Rd.
Grove City, OH 43123
614-278-5974 fax 614-278-5988

Youth Board Members:

Geisha Grice--California Youth Connections
San Francisco, CA 94104
Srv510-351-4401

Shanequa AndersonLeakke & Watts
Bronx, NY 10451
714-293-1194

Amanda Knight--Missourti Division of Family Srv
573-751-4319

Board of Directors By Region
Region I: Kathi Crowe (Vice Chair)

Region II: Karen Lendon
Leake & Watts
Yonkers, NY 10704
718-617-5100 fax 718-893-1268

Region III: Patrick Patrong
Maryland Ind. Living Program DHR
Baltimore, MD 21201-3521
410-767-7634 fax 410-333-0127

Region IV: Don Adams
South Carolina Dept. of Social Services
Columbia, SC 29202-1520
803-898-7715 fax 803-898-7652

Region IV: Lori Day
Fort Lauderdale, FL 33325
954-916-9403 fax 954-524-4451

Region V: Diann Stevens (Secretary)

Regiion VI: Rhonda Dyer
Pathways Youth Home
San Antonio, TX 78250-63009
210-521-8288 fax 210-543-9553

Region VII: Dotti Banks
Missouri Division of Family Services
Jefferson City, MO 65103
573-751-4319 fax 573-526-3971

Region VIII: Sharon Collins
Catholic Charities Arch of New Orleans
Marrero, LA 70072
504-340-5100 fax 504-347-0095

Regiion IX: Beverlee Kroll
Arizona Dept Economic Security--ACYF
Phoenix, AZ 85007
602-542-3981 fax 602-542-3330

Region X: Lee White (Treasurer)

State Seat: Janet Luft
Texas Dept. Protection & Regulatory
Austin, TX 78714-9030
512-438-5442 fax 512-438-3782

Private Seat: Cathy Welsh (Chair)

                                  <all>

</pre></body></html>
